Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  HHS PUBLIC HEALTH AND
    MEDICAL SERVICES
   EMERGENCY SUPPORT
      PREPAREDNESS




                    Daniel R. Levinson
                     Inspector General

                     November 2012
                     OEI-04-11-00260
EXECUTIVE SUMMARY: HHS PUBLIC HEALTH AND MEDICAL SERVICES
EMERGENCY SUPPORT PREPAREDNESS
OEI-04-11-00260


WHY WE DID THIS STUDY

In 2010, the Council of the Inspectors General on Integrity and Efficiency published An
IG’s Guide for Assessing Federal Response Capabilities, which recommended that
Federal agencies assess their emergency preparedness. Within the Department of Health
and Human Services (HHS), the Office of the Assistant Secretary for Preparedness and
Response (ASPR) organizes HHS’s resources and response as the Coordinator and
Primary agency responsible for Emergency Support Function-8 (ESF-8), Public Health
and Medical Services. HHS also has responsibilities as a Support agency for nine
additional ESFs.

HOW WE DID THIS STUDY

We reviewed ASPR’s and other Federal agencies’ documentation and information
request responses regarding HHS participation in ESF preparedness activities. We
determined the total number of incidents to which HHS deployed resources in 2010 and
2011 and reported responses from ASPR and States regarding HHS’s response to three
selected incidents.

WHAT WE FOUND

HHS has participated in preparedness activities to fulfill its Coordinator, Primary, and
Support agency ESF responsibilities. However, other ESF Coordinator and Primary
agencies did not always report having a clear understanding of HHS’s Support agency
role and available resources during incident response. Further, HHS deployed resources
for 28 incidents in 2010 and 2011 and demonstrated its ability to effectively fulfill its
ESF-8 responsibilities for 3 incidents we reviewed in 2010 and 2011. However, States
reported receiving multiple requests from HHS for the same information, which were
burdensome during incident response.

WHAT WE RECOMMEND

We recommend that ASPR: (1) continue to increase communication with the ESF
Coordinator and Primary agencies it serves as a Support agency, and (2) coordinate HHS
requests from HHS Staff Divisions and Operating Divisions to reduce the burden on
States during incident response. ASPR concurred with both recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................6
Findings......................................................................................................10

     HHS has participated in preparedness activities to fulfill its
     Coordinator, Primary, and Support agency ESF responsibilities ..........10
     HHS deployed resources to 28 incidents in 2010 and 2011 and
     demonstrated its ability to effectively fulfill its ESF responsibilities
     for 3 selected incidents we reviewed in 2010 and 2011 ......................17
Conclusion and Recommendations ............................................................24
     Agency Comments and Office of the Inspector General Response .....26
Appendixes ................................................................................................27
     A: Emergency Support Functions .......................................................27
     B: Seventeen Core Functional Areas of Emergency Support
     Function-8 ............................................................................................31
     C: National Planning Scenarios ..........................................................36
     D: The National Planning Scenario Playbooks and Emergency
     Support Function-8 ..............................................................................37
     E: Department of Health and Human Services Response to Three
     Selected Incidents in 2010 and 2011....................................................39
     F: 2010 and 2011 Incidents to Which the Department of Health and
     Human Services Deployed Resources .................................................50
     G: Agency Comments .........................................................................51
Acknowledgments......................................................................................57
                  OBJECTIVES
                  1. To determine whether the Department of Health and Human Services
                     (HHS) has prepared to provide public health and medical services to
                     fulfill its emergency support responsibilities.
                  2. To report the total number of emergencies and disasters (i.e., incidents)
                     to which HHS deployed resources in 2010 and 2011 and describe
                     HHS’s response to three selected incidents.

                  BACKGROUND
                  In 2010, the Council of the Inspectors General on Integrity and Efficiency
                  (CIGIE), a group of Inspectors General (IG) from agencies across the
                  Federal Government, created An IG’s Guide for Assessing Federal
                  Response Capabilities (IG’s Guide). 1 The IG’s Guide recommends that
                  IGs assess their Federal agency’s emergency preparedness capabilities. 2 It
                  provides a framework for Offices of Inspectors General to conduct
                  independent assessments of their department or agency’s (agency) incident
                  response capabilities. The IG’s Guide is based on the National Response
                  Framework (NRF), Emergency Support Functions, and the National
                  Planning Scenarios. 3 Recent incidents such as Hurricane Sandy
                  emphasize the need for Federal agencies to assess their emergency
                  response capabilities.
                  NRF
                  When an incident occurs that exceeds or is expected to exceed State,
                  territory, tribal, or local resources, these entities may request Federal
                  assistance. 4 The Federal Government uses the NRF, which was developed
                  through coordination of the Department of Homeland Security (DHS), to
                  organize and coordinate its response and provide supplementary resources
                  to affected areas. The NRF establishes a comprehensive, national,

                  1
                    CIGIE comprises all Inspectors General whose offices are established under the Inspector
                  General Act of 1978 (5 U.S.C. App.), those that are Presidentially appointed/Senate
                  confirmed, and those that are appointed by agency heads (designated Federal entities).
                  CIGIE, Mission and Organization. Accessed at http://www.ignet.gov/cigie1.html#mission on
                  July 11, 2012.
                  2
                    The IG’s Guide includes researchable questions that agencies can use as a starting point to
                  frame their assessments. However, all questions included in the IG’s Guide may not be
                  applicable to all agencies. CIGIE, An IG’s Guide for Assessing Federal Response
                  Capabilities (August 2010). Accessed at
                  http://www.ignet.gov/randp/igguidefederalresponse0810.pdf on April 12, 2011.
                  3
                      CIGIE, op. cit., pp. 7–8.
                  4
                      States include U.S. districts and territories.
                                                                                                                  1
HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)
                  all-hazards approach to domestic incident responses. 5 An all-hazards
                  approach focuses on general capability-based planning that can be applied
                  to a variety of incidents. 6, 7 Federal agencies may also move resources
                  close to an area or event where an incident may occur in anticipation of
                  needs. 8 For example, HHS deployed medical personnel to East Coast
                  States in anticipation of Hurricane Irene’s landfall.
                  The NRF serves as a guide for organizing efforts of Federal, State, tribal,
                  and local governments, as well as nonprofit and for-profit private-sector
                  organizations (e.g., American Red Cross, private businesses). The NRF
                  outlines each Federal agency’s role during an incident and organizes
                  agencies within 15 Emergency Support Functions (ESF). 9
                  ESFs
                  The 15 ESFs within the NRF assign responsibilities to agencies. 10
                  Appendix A provides a listing of each ESF and identifies assigned
                  responsibilities.
                  ESFs are activated by a declaration from the President or a Federal agency
                  based on the needs resulting from an incident. 11 Once ESFs are activated,
                  agencies with ESF responsibilities can provide requested resources to
                  affected States, territories, tribes, and localities. 12 States, territories, tribes,
                  and localities are not required to request or accept Federal resources
                  during an incident response. If these entities request Federal resources,
                  the ESF Coordinator and Primary agencies consider the requests and
                  provide resources as they are available and necessary.

                  5
                    DHS, National Response Framework, January 2008 (which superseded the National
                  Response Plan, 2004), pp. 1, 28. Accessed at
                  http://www.fema.gov/pdf/emergency/NRF/NRF-core.pdf on March 7, 2011.
                  6
                    DHS, National Preparedness Guidelines, September 2007, p. 3. Accessed at
                  http://www.fema.gov/pdf/emergency/NRF/NRF-core.pdf on June 21, 2011. DHS, National
                  Response Framework, p. 31.
                  7
                    DHS, Presidential Policy Directive–8. Accessed at
                  http://www.dhs.gov/xabout/laws/gc_1215444247124.shtm on November 7, 2011. In March
                  2011, Presidential Policy Directive-8 (i.e., PPD-8) was released; it emphasizes integrated,
                  risk-based preparedness planning for all agencies and organizations involved in incident
                  response. The NRF is being revised as a result of PPD-8.
                  8
                      DHS, National Response Framework, p. 11.
                  9
                      DHS, National Response Framework, pp. 3–4.
                  10
                       Ibid., p. 29. The ESFs can be found at http://www.fema.gov/emergency/NRF/#.
                  11
                     Upon the advice of the Federal Emergency Management Agency (FEMA) Administrator,
                  the President may declare a disaster. ESFs are activated on the basis of the needs caused by
                  the incident. 42 U.S.C. §§ 5170, 5191. A Federal agency may also declare a disaster or
                  emergency (e.g., the Secretary of HHS may declare a public health emergency) and activate
                  ESFs to which the agency is assigned. Public Health Service Act, § 319 (42 U.S.C. § 247d);
                  DHS, National Response Framework., p. 60.
                  12
                       Ibid., pp. 24–26.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                          2
                  Each ESF divides Federal responsibilities among agencies on the basis of
                  their capabilities. Federal agencies are designated as Coordinator,
                  Primary, and/or Support agencies. Each ESF has one Coordinator agency,
                  but may have one or more Primary agencies and multiple Support
                  agencies and organizations. 13 For example, ESF responsibilities require
                  that, as a Coordinator and Primary agency, HHS provide medical
                  personnel when an incident occurs. As a Support agency, the Department
                  of Agriculture may provide food safety and inspection services for the
                  same incident. For-profit and nonprofit private-sector organizations,
                  hereinafter referred to as organizations, may also provide assistance as
                  Support organizations in an ESF response.
                  Throughout the preparedness, response, and recovery phases of an
                  incident, the Coordinator agency is responsible for managing and
                  organizing the resources provided by Primary and Support agencies and
                  organizations. 14 Primary agencies provide specific resources identified in
                  the ESF (e.g., medical personnel to an affected area) and collaborate with
                  other Federal, State, territory, tribal, and local governments and
                  organizations that have other available resources. Support agencies and
                  organizations are assigned ESF responsibilities on the basis of their ability
                  to provide supplementary resources to the Primary agency responsible for
                  the ESF. 15
                  Coordinator, Primary, and Support agencies and organizations engage in a
                  variety of activities to prepare for an incident. Federal emergency
                  preparedness guidance documents outline these five preparedness
                  activities, which generally include:
                         •     developing written incident response plans (e.g., scenario
                               playbooks, field operations guides, strategies to obtain and deploy
                               staff and equipment);
                         •     participating in training and exercises; 16
                         •     purchasing equipment and procuring contracts to support incident
                               response;



                  13
                    The same agency within an ESF is often assigned to be both Coordinator and a Primary
                  agency and leads ESF responses based on its capabilities. For example, HHS serves as a
                  Coordinator and a Primary agency for ESF-8.
                  14
                       DHS, Emergency Support Function Annexes Introduction, pp. iii–v.
                  15
                       Ibid.
                  16
                     Exercises include tabletop and live exercises. Tabletop exercises use HHS plans and
                  representations of people and resources to simulate incident response. Live exercises also use
                  HHS plans but involve personnel and volunteer participants to simulate incident response.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                       3
                       •   coordinating internally as well as externally with other ESF
                           agencies; and
                       •   conducting situational and readiness assessments. 17, 18
                  These activities are referred to as preparedness activities hereinafter.
                  HHS’s ESF Responsibilities
                  HHS is the Coordinator and Primary agency for ESF-8, Public Health and
                  Medical Services. As such, it manages the Federal response to an incident
                  for activities in these areas. HHS also provides public health and medical
                  services as a Support agency for nine additional ESFs (see Appendix A).
                  ESF-8 is the “mechanism for coordinated Federal assistance to supplement
                  State, tribal, and local resources in response to a public health and medical
                  disaster.” 19 HHS conducts national situational and readiness assessments
                  to prepare to respond to States’ public health and medical needs when
                  incidents occur. Further, HHS may provide ESF support to States,
                  territories, tribes, and localities in the form of technical and situational and
                  readiness assessment assistance, when requested. Within HHS, the Office
                  of the Assistant Secretary for Preparedness and Response (ASPR)
                  organizes HHS’s preparedness resources and response activities. 20
                  Specifically, ASPR coordinates with HHS Staff Divisions (e.g., ASPR,
                  Assistant Secretary for Health (ASH)) and Operating Divisions (e.g.,
                  Center for Disease Control and Prevention (CDC), Food and Drug
                  Administration (FDA)) to ensure that HHS is prepared to provide public
                  health and medical resources when incidents occur. 21




                  17
                     Information pertinent to this review was taken from the IG’s Guide and consolidated into
                  the five prepared activities. CIGIE, loc. cit.
                  18
                    DHS, Emergency Support Function Annexes Introduction, pp. iii–v; DHS, National
                  Response Framework; DHS, National Preparedness Guidelines.
                  19
                     DHS, ESF-8–Public Health and Medical Services Annex, p. 1. Accessed at
                  http://www.fema.gov/pdf/emergency/NRF/NRF–esf–08.pdf on May 13, 2011.
                  20
                     HHS is made up of the Office of the Secretary, which is divided into 16 Staff Divisions,
                  and 11 Operating Divisions. Operating and Staff Divisions perform tasks that include
                  research, public health work, food and drug safety, grants funding, and health insurance. Staff
                  Divisions provide direct support to the Secretary of HHS. For example, ASPR supports the
                  Secretary’s mission through its preparedness and response efforts. HHS, HHS Operating and
                  Staff Divisions. Accessed at http://www.hhs.gov/about/ on May 15, 2012.
                  21
                     ASPR, Office of the Assistant Secretary for Preparedness and Response. Accessed at
                  http://www.phe.gov/about/aspr/Pages/default.aspx on May 11, 2011.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                         4
                  HHS’s ESF-8 responsibilities include 17 core functional areas of public
                  health and medical services (e.g., assessment of public health and medical
                  needs, health surveillance, and medical care personnel). 22, 23
                  Appendix B contains detailed descriptions of the 17 core functional areas
                  as they appear in the NRF.
                  HHS as the ESF-8 Coordinator and Primary Agency. HHS is charged
                  with continually assessing and coordinating its resources and capabilities
                  to ensure that it is prepared to fulfill its responsibility for the 17 core
                  functional areas of public health and medical services. 24, 25 If HHS does
                  not have the resources or capability to fulfill the 17 core functional areas,
                  it can request assistance from designated Support agencies and
                  organizations. Sixteen ESF Support agencies and organizations are tasked
                  with providing supplementary resources to HHS, as needed. 26, 27
                  HHS as an ESF Support Agency. When an incident occurs and HHS is not
                  the Coordinator or Primary agency, it provides supplementary resources,
                  as needed, for nine additional ESFs (see Appendix A). HHS provides
                  public health and medical services as a Support agency similar to those
                  that it provides as a Primary agency for ESF-8. For example, if ESF-10
                  (Oil and Hazardous Materials Response) is activated, the Environmental
                  Protection Agency (EPA), as the ESF-10 Primary agency, can request that
                  HHS provide supplementary medical personnel. 28, 29 Seven of the nine
                  ESFs list which public health and medical services HHS must be prepared
                  to provide as a Support agency. 30


                  22
                       DHS, ESF-8 Annex, pp. 4–8.
                  23
                     ESF-8 includes a core functional area entitled Worker Safety and Health. The Department
                  of Labor is the lead Federal agency for this core functional area, and HHS serves as a Support
                  agency. Therefore, the Worker Safety and Health core functional area is not included in our
                  list of HHS’s 17 core functional areas of ESF-8.
                  24
                     DHS, Overview: ESF and Support Annexes Coordinating Federal Assistance In Support of
                  the National Response Framework. Accessed at
                  http://www.fema.gov/pdf/emergency/NRF/NRF–overview.pdf on November 4, 2011.
                  25
                       DHS, ESF-8 Annex, p. 9.
                  26
                       Ibid., pp. iv, 10.
                  27
                     ASPR, Response Coordination. Accessed at
                  http://www.phe.gov/Preparedness/responders/soc/Pages/coordination.aspx on June 22, 2011.
                  28
                     ASPR, Response Coordination; DHS, Emergency Support Function Annexes Introduction,
                  p. iv.
                  29
                     DHS, ESF-10 Oil and Hazardous Materials Response Annex. Accessed at
                  http://www.fema.gov/pdf/emergency/NRF/NRF–esf–10.pdf on August 24, 2011.
                  30
                     DHS, NRF Resource Center. Accessed at http://www.fema.gov/emergency/NRF/# on
                  August 24, 2011. The following ESFs list resources that HHS should be prepared to provide
                  as a Support agency during an ESF response: ESF-3, - 6, - 7, - 9, -10, -11, and -14. ESF-5
                  and -15 call for general HHS public health and medical support.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                       5
                  National Planning Scenarios
                  DHS created the 15 National Planning Scenarios to illustrate the potential
                  scope, magnitude, and complexity of a range of major events for which the
                  nation should be prepared. The 15 National Planning Scenarios are one of
                  four parts of the National Preparedness Guidelines. 31 DHS created the
                  National Preparedness Guidelines to assist Federal, State, and local
                  governments and organizations in coordinating incident preparedness and
                  response. Agencies may also develop written plans to address incidents
                  that may require unique plans and resources. 32
                  Similar to the NRF, the 15 National Planning Scenarios provide guidance
                  on preparedness efforts for a range of potential incidents. 33 The NRF
                  provides general guidance regarding collaboration during incident
                  response, and the scenarios provide guidance specifically regarding
                  preparedness and response to incidents, such as a major hurricane. See
                  Appendix C for a complete list of the 15 National Planning Scenarios.

                  METHODOLOGY
                  Scope
                  We determined whether HHS has prepared to fulfill its Coordinator and
                  Primary agency ESF-8 responsibilities. We also determined whether HHS
                  addressed the 15 National Planning Scenarios through its participation in
                  preparedness activities. Further, we determined whether HHS participated
                  in preparedness activities with other ESF Coordinator and Primary
                  agencies for the nine additional ESFs it serves as a Support agency.
                  We also reported the total number of incidents to which HHS deployed
                  resources in 2010 and 2011. We then took an indepth look at three
                  selected incidents to which HHS responded.
                  We used the IG’s Guide as a framework for our evaluation and addressed
                  categories from the guide that pertained to HHS’s responsibilities. We
                  reviewed the following categories: participating in activities regarding the
                  15 National Planning Scenarios, developing written plans, participating in
                  training and exercises, purchasing equipment and procuring contracts,

                  31
                     The four parts that make up the National Preparedness Guidelines are: National
                  Preparedness Vision, National Planning, Universal Task List, and Target Capabilities List.
                  DHS, National Preparedness Guidelines, pp. iii, 31. Accessed at
                  http://www.dhs.gov/files/publications/gc_1189788256647.shtm on June 25, 2012. DHS,
                  National Response Framework, pp. 31, 73.
                  32
                     ASPR, Playbooks Introduction. Accessed at
                  http://www.phe.gov/Preparedness/planning/playbooks/rdd/Pages/default.aspx on April 20,
                  2012, p. 3.
                  33
                       DHS, National Preparedness Guidelines, p. 31.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                        6
                  coordinating internally among HHS Staff and Operating Divisions and
                  externally with other ESF agencies, and conducting situational and
                  readiness assessments. We did not include categories from the IG’s Guide
                  regarding financial accountability and recovery operations. 34
                  Data Collection and Analysis
                  HHS as a Coordinator and Primary Agency. We requested information
                  and collected documentation (e.g., After-Action Reports describing events
                  that occurred in the National Level Exercise and service contracts
                  procured by HHS for development of an Internet application) from ASPR
                  regarding participation in preparedness activities to fulfill HHS’s
                  Coordinator and Primary responsibilities for the 17 core functional areas
                  of ESF-8. We also requested information and collected documentation
                  from ASPR on HHS’s participation in preparedness activities to respond to
                  the 15 National Planning Scenarios. ASPR coordinated with other HHS
                  Staff Divisions and Operating Divisions, as needed, to fulfill our request.
                  We analyzed HHS’s responses and documentation to determine whether
                  HHS participated in preparedness activities to fulfill the 17 core functional
                  areas of ESF-8. If HHS had addressed a core functional area by
                  participating in each of the five preparedness activities at least once (i.e.,
                  developing written incident response plans, participating in training and
                  exercises, purchasing equipment and procuring contracts, coordinating
                  internally and externally, and conducting situational and readiness
                  assessments), we considered HHS as having prepared for that core
                  functional area. We then report the number of core functional areas in
                  which HHS had prepared. Further, we describe each of the five
                  preparedness activities, how HHS engaged in them, and the core
                  functional areas that correlated with them.
                  We also analyzed HHS’s responses and documentation to determine
                  whether HHS has participated in each of the five preparedness activities at
                  least once to address the 15 National Planning Scenarios.
                  HHS as a Support Agency. We coordinated with ASPR to identify
                  appropriate points of contact for the ESF Coordinator and Primary
                  agencies for the nine additional ESFs. We requested and received
                  information from these Coordinator and Primary agencies for all nine
                  ESFs. We collected documentation from the ESF Coordinator or one or


                  34
                     HHS OIG’s Office of Audit Services conducts audits specifically addressing financial
                  accountability. In September 2011, DHS introduced the National Disaster Recovery
                  Framework in which HHS has specific recovery responsibilities separate from what is
                  included in the IG’s Guide. DHS, National Disaster Recovery Framework. Accessed at
                  http://www.fema.gov/pdf/recoveryframework/ndrf.pdf on August 13, 2012.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                     7
                  more of the ESF’s Primary agencies regarding HHS’s involvement in
                  planning and response activities as a Support agency. 35
                  We analyzed responses and documentation from HHS and the information
                  provided by other ESF Coordinator and Primary agencies to determine
                  whether HHS has prepared to fulfill its Support agency responsibilities.
                  HHS’s Support to States During 2010 and 2011 Incidents. We requested
                  and received from ASPR the total number of incidents to which HHS
                  deployed resources in 2010 and 2011. We also requested that ASPR
                  identify selected incidents to which HHS deployed resources and to which
                  it responded as an ESF-8 Coordinator and Primary agency in 2010 and
                  2011. Because some incidents require resources from only a portion of the
                  17 core functional areas, we asked that ASPR’s list include the smallest
                  number of incidents that collectively required resources from all 17 core
                  functional areas. ASPR identified three incidents: Red River flooding in
                  North Dakota in March 2010; a tornado in Joplin, Missouri, in May 2011;
                  and Hurricane Irene along the East Coast in August 2011. ASPR
                  identified
                  17 States that were affected by these incidents. 36 We then requested
                  information from State officials about their requests for and receipt of
                  HHS support during these incidents. All 17 States responded to our
                  request.
                  We also analyzed State responses to open-ended questions about HHS’s
                  response during incidents, the resources HHS provided, and any successes
                  or challenges the States experienced in working with HHS. We report
                  whether States indicated that HHS provided them resources and present
                  examples of the States’ experiences working with HHS. We also
                  requested information from ASPR regarding the ESF-8 resources provided
                  by HHS to States affected by these incidents.
                  Limitations
                  We assessed HHS’s preparedness activities based on self-reported data
                  from Federal agencies and States. We did not independently verify HHS’s
                  reported preparedness activities. We did not determine HHS’s capability
                  to respond to an incident, or whether the reported response was sufficient.

                  35
                     Each ESF may have more than one Coordinator and Primary agency. We requested
                  information from all ESF Coordinator and Primary agencies for which HHS is a Support
                  agency—a total of 18 points of contact. We received responses from at least one Coordinator
                  or Primary agency for each ESF that HHS supports. We received multiple responses from
                  agencies for some ESFs. The total number of responses was 13.
                  36
                     The Red River flooding affected North Dakota. The Joplin tornado affected Missouri.
                  States affected by Hurricane Irene were Connecticut, Delaware, the District of Columbia,
                  Maryland, Massachusetts, New Jersey, New York, North Carolina, Pennsylvania, Puerto Rico,
                  Rhode Island, South Carolina, U.S. Virgin Islands, Vermont, and Virginia.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                     8
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)   9
                  FINDINGS
                  HHS has participated in preparedness activities to
                  fulfill its Coordinator, Primary, and Support agency
                  ESF responsibilities
                  The ESF framework within the NRF describes HHS’s responsibility to
                  fulfill the 17 core functional areas of ESF-8 as a Coordinator, Primary, and
                  Support agency. HHS has led and supported other agencies in five
                  preparedness activities that Federal guidance documents describe as
                  important to being prepared to respond to an incident. These five
                  preparedness activities are developing written plans; participating in
                  training and exercises; purchasing equipment and procuring contracts to
                  support incident response; coordinating internally among HHS as well as
                  externally with other ESF agencies; and conducting situational and
                  readiness assessments.
                  HHS has developed written incident response plans
                                                                    HHS has created incident
                                                                    response plans for all 17 core
                                                                    functional areas of ESF-8.
                                                                    Further, HHS’s National Planning
                                                                    Scenario playbooks and other
                                                                    written incident response plans
                                                                    address all the core functional
                                                                    areas.
                                                                    Specifically, HHS has developed
                                                                    playbooks for 14 of the 15
                                                                    National Planning Scenarios (see
                                                                    Appendix D). Although no
                                                                    playbook has been written for the
                                                                    cyber security National Planning
                                                                    Scenario, HHS included incident
                                                                    response plans for cyber security

                Photo provided by ASPR
                The Hurricane Playbook describes HHS’s public
                health and medical services written incident
                response plans.




HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)             10
                  in the 2010 Health Care and Public Health Sector Specific Plan and the
                  2010 Sector Annual Report.37
                  HHS has prepared other written incident response plans and technical and
                  health care preparedness guidance documents that address topics
                  including: the Hospital Preparedness Program, medical movement of
                  evacuees, National Veterinary Response Teams, disaster behavioral health,
                  and National Disaster Medical System (NDMS) (i.e., medical personnel).
                  HHS has also published the National Health Security Strategy and
                  Implementation Plan, which outline a national vision and actions
                  regarding public health and medical preparedness, response, and recovery
                  capabilities.
                  HHS has participated in incident response training and
                                                              exercises
                                                                                 HHS has participated
                                                                                 in at least one training
                                                                                 activity and exercise
                                                                                 to ensure it is
                                                                                 prepared to fulfill its
                                                                                 responsibilities in all
                                                                                 17 core functional
                                                                                 areas of ESF-8.
                                                                                 Exercises in a
                                                                                 realistic setting
                                                                                 provide personnel
                  Photo provided by FEMA                                        opportunities to use
                  Health care workers rush to decontaminate a simulated victim
                  during an exercise at the Center for Domestic Preparedness in
                                                                                training and hone
                  Anniston, Alabama. These students were attending the          skills they will need
                  Hospital Emergency Response Training for Mass Casualty        during incident
                  Incidents course.
                                                                                response. For
                  example, the U.S. Public Health Service (USPHS) has trained personnel to
                  provide mass care (i.e., sheltering, feeding operations, emergency first aid,
                  bulk distribution of emergency items, and collecting and providing
                  information on victims to family members) to people affected by an
                  incident. USPHS maintains teams of trained personnel that can address
                  specific needs during a response.



                  37
                     DHS and HHS, 2010 Sector CIKR Protection Annual Report for the Health Care and
                  Public Health Sector. Accessed at
                  http://www.phe.gov/Preparedness/planning/cip/Documents/2010cikrannualreport.pdf on
                  April 20, 2012; ASPR, Health Care & Pubic Health Sector Specific Plan. Accessed at
                  http://www.phe.gov/Preparedness/planning/cip/Pages/ssp.aspx on April 20, 2012.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                11
                  In 2010 and 2011, HHS reported that it conducted or participated in
                  60 live and tabletop exercises. 38 Three of the seven tabletop exercises that
                  HHS conducted in 2011 focused on an anthrax dispersal scenario. These
                  exercises did not require participants to simulate the incident response.
                  Instead, using visual aids for illustration, participants were invited to
                  discuss roles and responsibilities that would be needed during a response.
                  Additionally, 11 live anthrax dispersal scenario exercises in 2010 and 2011
                  included other Federal and State agencies and organizations. The
                  exercises exposed gaps and demonstrated strengths in planning, training,
                  and resources and allowed participants to examine policy and operational
                  needs in responding to an aerosolized anthrax dispersal scenario.
                  HHS and other Federal, State, tribal, and local governments and
                  organizations participated in the National Level Exercise, a live annual
                                                                     exercise in which participants
                                                                     simulated incidents in real
                                                                     time. The 2011 National
                                                                     Level Exercise focused on an
                                                                     earthquake scenario in which
                                                                     participants simulated an
                                                                     appropriate response. For
                                                                     example, personnel used
                                                                     tangible resources and set up
                                                                     evacuation and alternative
                                                                     water supply stations. Local
                                                                     responders communicated
                                                                     their needs to State and
                                                                     Federal agencies, which
                                                                     collaborated to provide
                  Photo by SSG Brad Staggs                           resources for the response. In
                  Missouri National Guard members participated in
                  the 2011 National Level Exercise, which took place
                                                                     addition, HHS communicated
                  at Muscatatuck Urban Training Complex in           with private-sector partners
                  Butlerville, Indiana.                              and shared situational
                  awareness information that assisted in rapid local response. For example,
                  HHS collaborated with organizations such as the American Red Cross to
                  provide resources for medical surge response efforts.




                  38
                     HHS conducted and participated in 27 live and 3 tabletop exercises in 2010 and 23 live and
                  7 tabletop exercises in 2011.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                      12
                  HHS has purchased equipment and procured contracts to
                  support incident response
                  HHS has purchased at least one piece of equipment and procured contracts
                  to fulfill its responsibilities in each of the 17 core functional areas of
                  ESF-8. Such equipment and contracts cover a wide range of areas. For
                  example, HHS has purchased equipment and procured contracts to
                  assemble and maintain Disaster Medical Assistance Team (DMAT) caches.
                  Items needed for the caches include pharmaceuticals, ventilators,
                  defibrillators, communications equipment, and electronic medical record
                  software. Service contracts have been procured for the equipment in
                  caches. Caches are prepackaged for rapid deployment and are also
                  strategically stored around the country so that they are readily available
                  when an incident response is required. 39
                  HHS also has procured contracts for services to ensure it is able to fulfill
                  its ESF-8 responsibilities. For example, in 2011, HHS contracted with a
                                                                         vendor to develop an
                                                                         Internet-based
                                                                         application to help track
                                                                         medical care personnel.
                                                                         The application makes
                                                                         public health and
                                                                         medical volunteer
                                                                         credential information
                                                                         available to health care
                                                                         facilities when incidents
                                                                         occur. It allows States’
                                                                         credential information to
                  Photo provided by ASPR
                  A member of a DMAT sets up an NDMS cache with           be linked, creating a
                  equipment and supplies needed to provide medical care.  single network for use
                                                                          nationwide.
                  Further, HHS contracted with a vendor to conduct a national survey of
                  medical equipment and supplies. This survey determined the number of
                  ventilators in acute care hospitals that could be used in mass casualty
                  scenarios, such as a pandemic.



                  39
                    HHS has purchased equipment for caches in the following areas: Basic IT/Telecom Kit,
                  Critical Care, Disaster Medical Assistance Team, Disaster Portable Morgue Unit, Electronic
                  Medical Record Kit, Family Assistance Center Team, Federal Medical Station, Incident
                  Response Coordination Team, International Surgical Response Team, Mobile Medical Kit,
                  National Medical Response Team, National Special Security Event, National Veterinary
                  Response Team, and Personnel Support Kit.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                        13
                  HHS has coordinated its incident response efforts internally
                  and externally
                  During 2010 and 2011, HHS provided internal and external coordination
                  to fulfill its responsibilities in all 17 core functional areas of ESF-8. HHS
                  regularly coordinates internally with its Staff Divisions and Operating
                  Divisions to ensure it is ready to respond when incidents occur. For
                  example, the Office of the Surgeon General’s Office of Force and
                  Readiness and Deployment coordinates with USPHS teams regarding
                  ESF-8 response. USPHS has seven types of teams and the Office of the
                  Surgeon General’s Office of Force and Readiness and Deployment
                  frequently conducts meetings to update written incident response plans,
                  training, and exercises regarding ESF-8 response responsibilities. 40
                  HHS also coordinates externally with other Federal, State, tribal, and local
                  governments and organizations and participates in preparedness activities
                                                                                   with them to
                                                                                   ensure resources
                                                                                   are provided
                                                                                   through a
                                                                                   coordinated
                                                                                   response. For
                                                                                   example, in 2011,
                                                                                   HHS coordinated
                                                                                   with other Federal
                                                                                   agencies, State,
                  Photo provided by FEMA                                           and local
                  Ambulances departed from Stewart Air Force Base to evacuate
                  patients from New York hospitals after Hurricane Irene in August governments, and
                  2011 under the Federal National Ambulance Contract.              organizations to
                  establish procedures for joint delivery of veterinary services in preparation
                  for an incident response through the Pets Multi-Agency Coordination
                  System (Pets-MACS). Through its participation in Pets-MACS, HHS
                  coordinates with other agencies, governments, and organizations to deploy
                  National Veterinary Response Teams to treat animals in need.
                  In many instances, HHS must coordinate internally and externally to cover
                  the same responsibility. For example, in 2011, HHS coordinated with
                  FEMA to develop the National Federal Ambulance Contract, which was
                  developed to provide patient evacuation using private-sector ground and
                  air ambulance services. Coordination internally within HHS and with


                  40
                     The seven types of teams are Services Access, Rapid Deployment Force, Applied Public
                  Health, Mental Health, Capitol Area Providers, National Incident Response, and Regional
                  Incident Response.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                     14
                  FEMA, and externally with private-sector ambulance service businesses,
                  was necessary to develop this contract.
                  HHS regularly conducts situational and readiness
                  assessments to respond to an incident quickly
                  The HHS Secretary’s Operation Center (SOC) operates 24 hours a day,
                  every day of the year, and maintains real-time situational and readiness
                  assessments. Through these assessments, HHS monitors potential and
                  actual incidents requiring public health and medical resources within all
                  17 core functional areas of ESF-8.


                                                                                          To provide
                                                                                          comprehensive
                                                                                          assessments, the
                                                                                          SOC conducts
                                                                                          situational
                                                                                          and readiness
                                                                                          assessments
                                                                                          before, during,
                                                                                          and after an
                                                                                          incident.

                                                                                          Photo provided by
                                                                                          ASPR




                  HHS’s Emergency Management Group staffs the SOC and maintains
                  communication with Federal, State, territorial, tribal, and local
                  governments, and other organizations. 41 The Emergency Management
                  Group provides real-time information to assist HHS Staff Divisions and
                  Operating Divisions as they consider deploying resources before and
                  during an incident. Examples of regular SOC situational and readiness
                  assessment activities include:
                  •    identifying emerging threats through public health data for special
                       topics (e.g., West Nile virus, influenza activity). When threats are
                       identified, SOC personnel provide relevant information to HHS, other
                       government agencies, and leaders of organizations;
                  •    tracking field reports received from Regional Emergency Coordinators
                       (REC), HHS Operating Divisions, and other ESF-8 agencies that
                       support State, territorial, tribal, and local incident response;




                  41
                    The Emergency Management Group consists of liaisons from HHS Staff Divisions and
                  Operating Divisions and other Federal agencies.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                       15
                  •     conducting conference and video calls to facilitate coordination and
                        information sharing between HHS and deployed field personnel, such
                        as the RECs, NDMS, and USPHS; and
                  •     preparing and coordinating situational assessments regarding HHS
                        resources available for deployment in advance of and during
                        prominent national events (e.g., Presidential inauguration, Super
                        Bowl).
                  HHS has participated in preparedness activities to fulfill its
                  Support agency ESF responsibilities
                  HHS has participated in preparedness activities for all nine of the
                  additional ESFs it is required to support. 42 Coordinator and Primary
                  agencies from eight of the nine ESFs said that, as a Support agency, HHS
                  is prepared to fulfill its responsibilities. One ESF-3 agency, DOD-U.S.
                  Army Corps of Engineers, said that it has not communicated with HHS
                  regarding its Support agency role.
                  Many of the preparedness activities in which HHS has participated as a
                  Coordinator and Primary agency are the same as those HHS provides in its
                  Support agency role. For example, HHS participated in the 2011 National
                  Level Exercise as an ESF-8 Coordinator and Primary agency and as a
                  Support agency for nine additional ESFs.

                  HHS also participated in exercises with Coordinator and Primary agencies
                  for five of the nine ESFs for which it is a Support agency. 43 For example,
                  HHS participated as an ESF-7 Support agency in quarterly meetings of the
                  Disaster Management Strategic working group with FEMA and the
                  Government Services Administration. HHS also provided public health
                  and medical services resources requested by these agencies. HHS
                  provided many of the same core public health and medical services in each
                  instance, with the distinction being who was responsible for leading the
                  ESF response.
                  Coordinator and Primary Agencies Did Not Always Report Having a
                  Clear Understanding of HHS’s Support Agency Role and HHS’s Available
                  Resources.
                  Two of the eight ESF Coordinator and Primary agencies that reported
                  HHS participation in preparedness activities as a Support agency indicated

                  42
                    Support agency preparedness activities include developing written incident response plans,
                  conducting training and exercises, purchasing equipment and procuring contracts, and
                  conducting situational and readiness assessments. Internal and external coordination are not
                  considered Support agency preparedness activities in this report.
                  43
                       ESF-5, -6, -7, -10, and -15 reported that HHS participated in exercises.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                      16
                  that increased HHS communication regarding planning activities and
                  available resources would improve its Support capabilities. The ESF-9
                  agency (FEMA-Urban Search and Rescue) stated that better
                  communication of strategic information and preparedness planning and
                  activities would improve HHS’s performance as a Support agency. The
                  ESF-6 agency (FEMA-Individual Assistance Division) stated that
                  improved communication about resources that HHS is able to provide
                  could improve incident response. For example, during an ESF-6 incident
                  response, HHS can provide medical personnel as an ESF-6 Support
                  agency. FEMA stated that it would be helpful for HHS to communicate,
                  as soon as possible during an incident response, the number of available
                  HHS-authorized medical facilities and medical personnel. Using this
                  information, FEMA would be better able to determine whether additional
                  facilities and medical personnel were needed.

                  HHS deployed resources to 28 incidents in 2010 and
                  2011 and demonstrated its ability to effectively fulfill
                  its ESF responsibilities for 3 selected incidents we
                  reviewed in 2010 and 2011
                  HHS deployed resources to 15 incidents in 2010 and to 13 in 2011. The
                  incidents varied from mudslides in Kentucky to humanitarian missions in
                  Hawaii after the 2011 earthquake and tsunami (see Appendix F). HHS
                  also provided resources for 20 prominent national events in 2010 and
                  2011. 44 These events ranged from the State of the Union address to the
                  Cherry Blossom Festival. In preparing to provide public health and
                  medical services, HHS may position resources prior to incidents and
                  events.
                  Of the 28 incidents, we reviewed 3 that affected 17 States. During these
                  3 incidents, HHS demonstrated its ability to effectively fulfill all 17 core
                  functional areas of its ESF-8 responsibilities. The incidents were:
                        •    Red River flooding in North Dakota in March 2010;
                        •    Tornado in Joplin, Missouri, in May 2011; and
                        •    Hurricane Irene along the East Coast in August 2011.
                  Public health emergencies were declared for all three incidents. For each,
                  ASPR conducted situational and readiness assessments to determine what
                  public health and medical services States might need. Through its
                  Emergency Management Group, ASPR monitored the incident from the
                  SOC. ASPR disseminated relevant information to HHS Staff Divisions



                  44
                       HHS provided resources for 13 events in 2010 and for 7 in 2011.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)          17
                  and Operating Divisions and coordinated with them to provide requested
                  HHS resources.
                  HHS Operating Divisions outside of the Office of the Secretary also
                  conducted situational and readiness assessments to ensure that resources
                  were prepared for deployment in all three incidents. For example, CDC
                  monitored State health department reports regarding vector control (i.e.,
                  eradicating mammals, birds, or insects that transmit diseases such as West
                  Nile virus) and prepared to provide resources, such as products to
                  eradicate insects, if needed. The Substance Abuse and Mental Health
                  Services Administration (SAMHSA) assessed potential impact to
                  behavioral health systems (i.e., networks of behavioral health services
                  providers) and coordinated with stakeholders, assessed needs, and
                  provided technical assistance to all three affected populations. SAMHSA
                  and support organizations also distributed behavioral health materials.
                  SAMHSA deployed behavioral health specialists and provided grants to
                  restore behavioral health facilities and support services.
                  The Administration for Children and Families (ACF) and FDA also
                  participated in HHS’s response efforts. ACF assessed the impact the
                  incidents had on services such as access to food and emergency housing.
                  FDA deployed food safety consultants to conduct risk assessments of food
                  service and manufacturing facilities and of agricultural animals used for
                  human consumption.
                  For all three incidents, NDMS medical personnel were activated (i.e.,
                  instructed by the HHS Secretary to provide medical services) and hospital
                  bed availability was continually assessed through the Hospital
                  Preparedness Program’s Hospital Available Beds for Emergencies and
                  Disasters system. This system reports available hospital beds in real time
                  at the local and regional level. HHS also provided reports detailing
                  available blood resources and types to NDMS and other medical personnel
                  for all three selected incidents.
                  Finally, after each of the three incidents, ASPR coordinated with all
                  affected States to determine whether supplementary HHS resources were
                  needed. Appendix E is a detailed list of ESF-8 resources provided to
                  States by HHS during its response to three selected incidents in 2010 and
                  2011.
                  Red River flooding in North Dakota
                  On March 21, 2010, the Red River crested at 36.99 feet—19 feet above
                  flood level. Floodwaters destroyed homes, covered roadways, and closed
                  bridges. In an attempt to protect the city of Fargo from the floodwaters,
                  Federal, State, and local governments and organizations coordinated

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)       18
                  efforts to stack 700,000 sandbags around the city. At least 10 people were
                  reportedly rescued from floodwaters. 45
                  During the flood response, HHS provided North Dakota with resources in
                  12 of the 17 core functional areas of ESF-8. 46 (The State did not request
                  resources for the other five core functional areas.) Throughout the
                  response, HHS RECs monitored North Dakota’s requests for public health
                  and medical equipment and technical assistance, and provided requested
                  resources.
                  HHS deployed ESF-8 personnel to the North Dakota Emergency
                  Operations Center to provide technical support. Specifically, an HHS
                  Incident Response Coordination Team (IRCT) was deployed to assess
                                                                        flood damage. The
                                                                        IRCT interacted
                                                                        with State and local
                                                                        emergency
                                                                        response personnel
                                                                        to determine what
                                                                        additional ESF-8
                                                                        resources HHS
                                                                        could provide to
                                                                        support the State
                                                                        response.
                                                                               In addition to the
                  Photo provided by FEMA                                       IRCT, DMATs
                  Burlington, North Dakota, was inundated during the Red River
                  flood in March 2010.                                         were identified to
                                                                               assist in shelter
                  operations, as needed. Health and medical caches containing mobile
                  medical kits and prescription drugs were deployed to support response
                  personnel.
                  An HHS public affairs officer coordinated with State representatives to
                  assess public health and medical communication needs. To provide
                  further support, CDC posted information on its Web site to keep the public
                  informed about the flooding.



                  45
                     CNN, FEMA Chief to Survey Red River flooding. Accessed at
                  http://www.cnn.com/2010/US/weather/03/22/severe.weather/index.html?iref=allsearch on
                  June 22, 2012.
                  46
                    Core functional area resources not needed during the Red River flooding response were
                  Patient Evacuation; Agricultural Safety and Security; Vector Control; Mass Fatality
                  Management, Victim Identification, and Decontaminating Remains; and Veterinary Medical
                  Support.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                     19
                  State representatives reported that HHS’s response was “efficient and
                  effective,” and that all resources provided by HHS were sufficient,
                  helpful, and appropriate.
                  Tornado in Joplin, Missouri
                  On May 23, 2011, a “monster tornado” struck Joplin, killing 116 people
                  and injuring another 400. 47 Measuring over a half-mile wide, the tornado
                  destroyed an estimated 2,000 homes, schools, and businesses. One
                                                                                        hundred eighty
                                                                                        patients at St.
                                                                                        John’s
                                                                                        Regional
                                                                                        Medical Center
                                                                                        attempted to
                                                                                        find shelter as
                                                                                        the roof was
                                                                                        ripped off by
                                                                                        the tornado.
                                                                                        Weather
                                                                                        officials
                                                                                        reported that
                                                                                        the tornado was
                  Photo provided by FEMA                                                the single
                  Damage to the front entrance of St. John’s Regional Medical Center in deadliest
                  Joplin, Mo., after a deadly F-5 tornado struck.
                                                                                        twister in the
                  United States since 1947 and one of the nine deadliest in recorded
                  history. 48
                  HHS provided Missouri with resources in 16 of the 17 core functional
                  areas of ESF-8. (The State did not request resources for the other core
                  functional area. 49) HHS ESF-8 personnel deployed to Joplin assessed
                  damage to the medical infrastructure, including hospitals and long-term-
                  care facilities. An HHS IRCT and the Emergency Management Group
                  collaborated with FEMA and State and local officials to determine the
                  State’s need for Federal resources to repair the health care infrastructure.
                  DMATs also assisted with patient care and emergency services. A
                  Medical Strike Team was deployed to assess the impact on public health

                  47
                     Reuters, Tornado devastates Joplin, Missouri, 116 dead. Accessed at
                  http://www.reuters.com/article/2011/05/23/us–usa–weather–tornadoes–
                  idUSTRE74M08L20110523 on June 22, 2012.
                  48
                       Ibid.
                  49
                     Patient Evacuation core functional area resources were not needed during the Joplin
                  tornado response.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                    20
                  and respond to chemical, biological, and radiological dispersals. 50 RECs
                  collaborated with a hospital to set up a mobile medical unit. Health and
                  medical caches containing prescription drugs and mortuary equipment and
                  supplies were also deployed to Joplin. HHS personnel conducted family
                  interviews to assist with victim identification.
                  SAMHSA deployed behavioral health specialists who provided
                  psychological first aid and crisis counseling training to responders in
                  Joplin. SAMHSA coordinated with the American Red Cross, which also
                  provided mental health services to Joplin residents, as needed. SAMHSA
                  also managed the transport of patients, service providers, and drugs
                  requiring additional security, such as methadone, during the response.
                  ACF collaborated with ESF-6 personnel (e.g., DHS, FEMA), the Missouri
                  State Division of Family Services, and the Child Care Development Fund
                  to provide technical assistance and consultation to affected Joplin
                  residents. FDA inspected and provided surveillance of retail food
                  establishments and food manufacturing facilities. CDC assessed vaccine
                  need and availability and animal control, and assessed needs for vector
                  control resources. CDC worked with EPA to provide vector control
                  resources to eradicate mosquitoes in Joplin. CDC also worked with
                  Joplin’s health department to inform the affected population about the
                  need to boil water before use.
                  Public health emergency information was disseminated to the public
                  through ASPR’s Web site. CMS published information regarding
                  Medicare, Medicaid, and the Children’s Health Insurance Plan benefits
                  during an incident response. SAMHSA also provided stress management
                  information on its Web site.
                  State representatives reported that all requested resources were sufficient,
                  helpful, and appropriate. They stated that HHS provided technical support
                  and “guidance in some very challenging circumstances.”
                  Hurricane Irene along the East Coast
                  On August 22, 2011, Hurricane Irene struck Puerto Rico. The storm
                  downed trees, flooded streets, and left over a million people without
                  electricity. Hurricane advisories were issued for most States along the



                  50
                     A Medical Strike Team is prepared to assist with medical management and respond to the
                  public health consequences of chemical, biological, and radiological incidents that result from
                  accidental or deliberate acts. The team is designed to supplement the local hazardous
                  materials and medical response to weapons of mass destruction by offering specialized
                  equipment and knowledge, as well as additional fire and emergency personnel, physicians,
                  and nurses.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                        21
                  East Coast as Irene left Puerto Rico. 51 On August 26, the hurricane struck
                  the East Coast and left millions of people without electricity for several
                  days and, in some cases, several weeks. Homes, businesses, and crops
                  were damaged or destroyed by high winds and heavy rains. The storm
                  killed 45 people. 52
                  Fifteen States on the East Coast were affected by Hurricane Irene. 53 HHS
                  reported that it provided affected States with resources in 16 of the 17 core
                                                                                functional areas
                                                                                of ESF-8. (States
                                                                                did not request
                                                                                resources for the
                                                                                remaining core
                                                                                functional
                                                                                area. 54) HHS
                                                                                began its
                                                                                response by
                                                                                deploying IRCTs,
                                                                                DMATs,
                                                                                Logistical
                  Photo provided by National Oceanic Atmospheric Administration
                  Hurricane Irene as it strikes the East Coast in August 2011.
                                                                                Response
                                                                                Assistance
                  Teams, and Rapid Deployable Force teams to affected States.
                  Communications equipment was deployed to assist IRCTs in assessing
                  States’ needs and the resources HHS could provide. Caches containing
                  medical equipment had been strategically positioned along the East Coast
                  to prepare them for rapid deployment during incident response. The
                  Federal National Ambulance Contract was activated in New York to assist
                  with patient evacuation from hospitals and other health care facilities.
                  CDC assessed the need for vector control resources and conducted
                  epidemiology conference calls with affected States. CDC provided the
                  Virginia Department of Health with technical assistance regarding vector
                  control. The Health Resources and Services Administration assessed the


                  51
                     CBS News, Hurricane Irene Slams Puerto Rico, Eyes U.S. Accessed at
                  http://www.cbsnews.com/2100–201_162–20095323.html on June 22, 2012.
                  52
                     Associated Press, Hurricane Irene’s Impact, State by State. Accessed at
                  http://www.nj.com/news/index.ssf/2011/08/hurricane_irenes_impact_state.html on June 22,
                  2012.
                  53
                    The 15 States were Connecticut, the District of Columbia, Delaware, Massachusetts,
                  Maryland, North Carolina, New Jersey, New York, Pennsylvania, Puerto Rico, Rhode Island,
                  South Carolina, Vermont, Virginia, and the U.S. Virgin Islands.
                  54
                     Safety and Security of Drugs, Biologics, and Medical Devices core functional area
                  resources were not needed during the Hurricane Irene response.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                     22
                  impact of Hurricane Irene on service providers and their ability to deliver
                  community-based services to patients. HHS provided critical
                  infrastructure support to the American Red Cross in Baltimore to ensure
                  that blood supplies were secure.
                  Public health information regarding well water contamination was
                  disseminated to the public through ASPR’s Web site. CDC also updated
                  hurricane information on its Web site.
                  Representatives from 10 of the 15 States reported that they received HHS
                  resources, and that the resources provided were appropriate, based on their
                  requests. Of the 10 States that reported receiving resources, 9 indicated
                  that HHS resources were helpful. One State reported a neutral response
                  about the resources it received. 55
                  States Reported That Multiple Requests From HHS for the Same
                  Information Were Burdensome During Incident Response.
                  Five of the fifteen respondents reported that the same information was
                  requested multiple times by different HHS Staff Divisions and Operating
                  Divisions. 56 States reported that it appeared HHS personnel did not
                  communicate information among Staff Divisions and Operating Divisions
                  and that each division made separate requests. States indicated that these
                  multiple requests were burdensome.
                  One State said that although it had established a regular, recurring
                  reporting system during the Hurricane Irene response, HHS requested
                  information that the State had already provided or intended to provide in
                  the next reporting cycle. 57




                  55
                     The 10 States that received resources were Connecticut, Maryland, New Jersey, New York,
                  North Carolina, Pennsylvania, Puerto Rico, Rhode Island, Vermont, and Virginia. The five
                  States that did not receive resources were the District of Columbia, Delaware, Massachusetts,
                  South Carolina, and the U.S. Virgin Islands. The only State that reported a neutral response
                  about HHS resources received was Maryland.
                  56
                    The five States that reported receiving multiple requests for the same information were
                  Maryland, New York, North Carolina, Rhode Island, and Virginia.
                  57
                       Virginia.

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                       23
                  CONCLUSION AND RECOMMENDATIONS
                  In 2010, CIGIE published the IG’s Guide, which recommended that IGs
                  assess their Federal agency’s emergency preparedness capabilities. Recent
                  incidents such as the Sandy super storm emphasize the need for Federal
                  agencies to assess their emergency response capabilities. HHS is charged
                  with serving as the Coordinator and Primary agency for ESF-8 Public
                  Health and Medical Services. Within HHS, ASPR organizes HHS
                  resources and response as the Coordinator and Primary agency for ESF-8.
                  HHS also serves as the Support agency for nine additional ESFs.
                  HHS has taken action in all five preparedness activities we reviewed to
                  fulfill its ESF responsibilities as a Coordinator, Primary, and Support
                  agency. However, HHS can improve communication of its Support
                  agency role, responsibilities, and the resources it can provide during
                  incident response.
                  Further, HHS responded to 28 incidents in 2010 and 2011 and
                  demonstrated its ability to respond to 3 incidents we reviewed that
                  affected 17 States. Twelve of the seventeen States affected by these three
                  incidents reported requesting HHS resources and stated that the resources
                  they received were appropriate, based on their requests. However, internal
                  communication with Staff Divisions and Operating Divisions could be
                  increased to reduce duplicative information requests to States.
                  We recommend that HHS:
                  Continue to Increase Communication with ESF Coordinator
                  and Primary Agencies It Serves as a Support Agency
                  The NRF states that ESF Support agencies must be prepared to provide
                  resources and participate in preparedness activities to support the ESF
                  Coordinator and Primary agency’s mission. HHS should continue to work
                  toward increasing its communication with the Coordinator and Primary
                  agencies for the nine additional ESFs for which HHS serves as a Support
                  agency. Specifically, HHS should increase communication regarding its
                  Support agency role and the resources it can provide during incident
                  response.
                  Coordinate Requests for Information From HHS Staff Divisions
                  and Operating Divisions To Reduce the Burden on States
                  During an Incident Response
                  Five of the fifteen States affected by Hurricane Irene indicated that HHS
                  Staff Divisions and Operating Divisions made several requests for the
                  same information. States found this burdensome and reported that the
                  repeated requests slowed their incident response. HHS should coordinate

HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)     24
                  all requests for information during an incident response to ensure that
                  States are not being unnecessarily burdened. For example, HHS could
                  establish one point of contact per response area to communicate with State
                  and local governments during the incident response. This point of contact
                  could, in turn, disseminate information to HHS Staff Divisions and
                  Operating Divisions.




HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)   25
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  ASPR concurred with our recommendations and provided information
                  regarding its efforts to fulfill its emergency support responsibilities.
                  Specifically, ASPR will continue to include all appropriate Coordinator
                  and Primary agencies in any planning endeavors as well as routine
                  collaboration with partner agencies.
                  Regarding our second recommendation, ASPR will continue to improve
                  information collection from States concerning multiple agency requests
                  during incident response. Although ASPR makes every effort to ensure
                  that requests to States are well-coordinated and minimally burdensome, it
                  recognizes that during a response communication breakdowns may occur
                  at the Federal and State levels. ASPR acknowledges this challenge and
                  places a high priority on building and enhancing communications with all
                  of its partners and stakeholders.
                  We support ASPR’s efforts to address and continue to make progress in
                  these areas. For the full text of ASPR’s comments, see Appendix G.




HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)      26
                     APPENDIX A
                     Emergency Support Functions
                     The National Response Framework assigns 15 Emergency Support Functions (ESF) to various Federal agencies. Each
                     ESF divides Federal responsibilities among Coordinator (C), Primary (P), and Support (S) agencies and organizations.
                     The chart below indicates which Federal agencies and organizations are assigned responsibilities within each ESF. The
                     highlighted column and row indicate the Department of Health and Human Services’ ESF-8 responsibilities.
              Table A-1 Selected Federal Agencies With Coordinator, Primary, and Support Roles for Emergency Support Functions
                     #1                #2                 #3               #4              #5              #6                  #7               #8                 #9                  #10                  #11                 #12      #13                  #14        #15




                                                                                                                                                                                       Materials Response
                                                                                                                                                                   Search and Rescue


                                                                                                                                                                                       Oil and Hazardous




                                                                                                                                                                                                            Natural Resources
                                                                                                                           Resource Support
                                                                                                       Mass Care, Emer.




                                                                                                                                              Public Health and




                                                                                                                                                                                                                                         Public Safety and
                                                        Public Works and




                                                                                                                           Management and




                                                                                                                                              Medical Services
                                                                                                       Assist., Housing,
                                       Communications




                                                                                                       and Human Svs.




                                                                                                                                                                                                                                                                          External Affairs
                                                                                                                                                                                                            Agriculture and
                     Transportation




 Agencies and




                                                                                          Management
                                                        Engineering




                                                                                          Emergency




                                                                                                                                                                                                                                                             Community
 Organizations


                                                                           Firefighting




                                                                                                                                                                                                                                                             Long-Term

                                                                                                                                                                                                                                                             Recovery
                                                                                                                           Logistics




                                                                                                                                                                                                                                         Security
                                                                                                                                                                                                                                Energy
American
Council on
                                                                                                                                                                                                                 S
Historic
Preservation
American Red
                                                            S                               S                S                                     S                                                             S                                              S
Cross
Corporation for
National &
                                                            S                               S                                                                                                                                                                   S
Community
Service
Department of
Homeland             S                C/P/S              P/S               S              C/P/S         C/P/S               C/P/S                  S              C/P/S                 P/S                      S              S             S               C/P        C/P
Security (DHS)
Department of
                     S                 S                    S              S                S                                   S                  S               S                        S                    S              S             S                 S         S
Commerce
Department of
                     S                 S                C/P/S              S                S                S                  S                  S              P/S                       S                    S              S             S                 S         S
Defense
Department of
                     S                                      S                               S                                   S                  S                                        S                    S              C/P           S                 S         S
Energy
                                                                                                                                                                                                                                                  continued on next page




   HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                                                                                                                               27
       Table A-1 Selected Federal Agencies With Coordinator, Primary, and Support Roles for Emergency Support Functions, Continued
                      #1                #2                 #3               #4              #5              #6                  #7               #8                 #9             #10              #11                 #12      #13                  #14        #15




                                                                                                                                                                                Oil and Hazardous




                                                                                                                                                                                                    Natural Resources
                                                                                                                            Resource Support
                                                                                                        Mass Care, Emer.




                                                                                                                                               Public Health and




                                                                                                                                                                                                                                 Public Safety and
                                                         Public Works and




                                                                                                                            Management and




                                                                                                                                               Medical Services
                                                                                                        Assist., Housing,
                                        Communications




                                                                                                        and Human Svs.




                                                                                                                                                                                                                                                                  External Affairs
                                                                                                                                                                                                    Agriculture and
                       Transportation
  Agencies and




                                                                                           Management
                                                         Engineering




                                                                                                                                                                   Search and
                                                                                           Emergency




                                                                                                                                                                                                                                                     Community
  Organizations




                                                                            Firefighting




                                                                                                                                                                                                                                                     Long-Term
                                                                                                                                                                                Response




                                                                                                                                                                                                                                                     Recovery
                                                                                                                                                                                Materials
                                                                                                                            Logistics




                                                                                                                                                                                                                                 Security
                                                                                                                                                                   Rescue




                                                                                                                                                                                                                        Energy
Department of the
                       S                S                    S              S                S                S                  S                  S                P                S              P/S                S             S                 S         S
Interior
Department of
                       S                                                                     S                S                                     S                S                S                  S                        C/P                             S
Justice
Department of
                                                             S                               S                S                  S                  S                S                S                  S              S                               S         S
Labor
Department of
                       S                                     S              S                S                                                      S                                 S                  S              S                                         S
State
Department of
                      C/P                                    S                               S                S                  S                  S                                 S                  S              S                               S         S
Transportation
Delta Regional
                                                                                                                                                                                                                                                        S
Authority
Department of
                                                                                             S                                                                                                                                                                    S
Education
Environmental
                                                             S              S                S                                                      S                              C/P                   S              S             S                 S         S
Protection Agency
Federal
Communications                          S                                                    S                                                                                                                                                                    S
Commission
General Services
                       S                S                    S                               S                S                C/P                  S                                 S                  S                                                        S
Administration
Heritage
Emergency
                                                                                                                                                                                                         S
National Task
Force
Department of
Health and                                                   S                               S                S                  S              C/P                  S                S                  S                                              S         S
Human Services
                                                                                                                                                                                                                                 continued on next page




    HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                                                                                                                      28
         Table A-1 Selected Federal Agencies With Coordinator, Primary, and Support Roles for Emergency Support Functions, Continued
                     #1                #2                  #3              #4              #5               #6                 #7                #8               #9                   #10                  #11                #12       #13                 #14             #15




                                                                                                                                                                                      Materials Response
                                                                                                                                                                  Search and Rescue



                                                                                                                                                                                      Oil and Hazardous




                                                                                                                                                                                                           Natural Resources
                                                                                                                           Resource Support
                                                                                                       Mass Care, Emer.




                                                                                                                                              Public Health and




                                                                                                                                                                                                                                        Public Safety and
                                                        Public Works and




                                                                                                                           Management and




                                                                                                                                              Medical Services
                                                                                                       Assist., Housing,
                                       Communications




                                                                                                       and Human Svs.




                                                                                                                                                                                                                                                                             External Affairs
                                                                                                                                                                                                           Agriculture and
                      Transportation
 Agencies and




                                                                                          Management
                                                        Engineering
 Organizations




                                                                                          Emergency




                                                                                                                                                                                                                                                            Community
                                                                           Firefighting




                                                                                                                                                                                                                                                            Long-Term

                                                                                                                                                                                                                                                            Recovery
                                                                                                                           Logistics




                                                                                                                                                                                                                                        Security
                                                                                                                                                                                                                               Energy
Department of
Housing and
                                                                                            S                S                                                                                                                                                 P             S
Urban
Development
National
Archives and
                                                                                                                                                                                                                S
Records
Administration
National
Aeronautics and
                                                                                            S                                   S                                 S                                                                          S                               S
Space
Administration
Nuclear
Regulatory                                                  S                               S                                                                                              S                                   S                                             S
Commission
National
Voluntary
Organizations                                                                                                S                                                                                                                                                 S
Active in
Disaster
Office of
Personnel                                                                                   S                                   S                                                                                                                                            S
Management
Small Business
                                                                                            S                S                                                                                                                                                 P             S
Administration
Social Security
                                                                                                             S                                                                                                                               S                               S
Administration
                                                                                                                                                                                                                                                   continued on next page




     HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                                                                                                                            29
          Table A-1 Selected Federal Agencies With Coordinator, Primary, and Support Roles for Emergency Support Functions, Continued
                       #1               #2                  #3              #4               #5              #6                 #7                #8                #9             #10               #11                #12       #13                 #14             #15




                                                                                                                                                                                Oil and Hazardous




                                                                                                                                                                                                    Natural Resources
                                                                                                                            Resource Support
                                                                                                        Mass Care, Emer.




                                                                                                                                               Public Health and




                                                                                                                                                                                                                                 Public Safety and
                                                         Public Works and




                                                                                                                            Management and




                                                                                                                                               Medical Services
                                                                                                        Assist., Housing,
                                        Communications




                                                                                                        and Human Svs.




                                                                                                                                                                                                                                                                      External Affairs
                                                                                                                                                                                                    Agriculture and
                       Transportation
  Agencies and




                                                                                           Management
                                                         Engineering




                                                                                                                                                                   Search and
                                                                                           Emergency




                                                                                                                                                                                                                                                     Community
                                                                            Firefighting




                                                                                                                                                                                                                                                     Long-Term
  Organizations




                                                                                                                                                                                Response




                                                                                                                                                                                                                                                     Recovery
                                                                                                                                                                                Materials
                                                                                                                            Logistics




                                                                                                                                                                                                                                 Security
                                                                                                                                                                   Rescue




                                                                                                                                                                                                                        Energy
 Department of
                                                             S        S                                                                 S         S        S
 the Treasury
 Tennessee
                                          S                  S                                                                 S                           S
 Valley Authority
 Agency for
 International                                                                           S        S                                                        S
 Development
 Department of
                      S          S        S        C/P       S        S         S        S                  S       C/P/S      S                  P        S
 Agriculture
 Postal Service       S                                      S        S                  S                            S                 S                  S
 Veterans
                                          S                  S        S         S        S                                              S                  S
 Administration
Source: DHS, National Response Framework. Accessed at http:// www.fema.gov/pdf/emergency/NRF/NRF-core.pdf on March 7, 2011. DHS, ESF-8–Public Health and Medical
Services Annex. Accessed at http://www.fema.gov/pdf/emergency/NRF/NRF–esf–08.pdf on May 13, 2011.




       HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                                                                                                                   30
                  APPENDIX B
                  Seventeen Core Functional Areas of Emergency Support
                  Function-8
                  Emergency Support Function-8 (ESF-8) describes Federal public health
                  and medical services that can be provided to assist States, tribes, and
                  localities when an incident occurs. The Department of Health and Human
                  Services (HHS), in conjunction with Federal Support agencies and
                  organizations, fulfills the responsibilities within ESF-8. The 17 core
                  functional areas of ESF-8, as quoted in the National Response Framework
                  are: 58, 59
                  1. Assessment of Public Health/Medical Needs. HHS, in collaboration with
                     the Department of Homeland Security (DHS), mobilizes and deploys
                     ESF-8 personnel to support national or regional teams to assess public
                     health and medical needs, including the needs of at-risk population
                     groups, such as language assistance services for limited English-
                     proficient individuals and accommodations and services for individuals
                     with disabilities. This function includes the assessment of the health care
                     system/facility infrastructure.
                  2. Health Surveillance. HHS, in coordination with supporting departments
                     and agencies, enhances existing surveillance systems to monitor the
                     health of the general and medical needs population; carries out field
                     studies and investigations; monitors injury and disease patterns and
                     potential disease outbreaks, blood and blood product bio-vigilance, and
                     blood supply levels; and provides technical assistance and consultations
                     on disease and injury prevention and precautions.
                  3. Medical Care Personnel. Immediate medical response capabilities are
                     provided by assets internal to HHS (e.g., U.S. Public Health Service
                     Commissioned Corps (PHSCC), National Disaster Medical System
                     (NDMS), and Federal Civil Service employees) and from ESF-8
                     supporting organizations.
                       ESF-8 may request Department of Defense (DOD) support for casualty
                       clearing and staging, patient treatment, and support services such as
                       surveillance and laboratory diagnostics.


                  58
                     DHS, ESF-8–Public Health and Medical Services Annex. Accessed at
                  http://www.fema.gov/pdf/emergency/NRF/NRF–esf–08.pdf on May 13, 2011.
                  59
                     ESF-8 includes a core functional area entitled Worker Safety and Health. The Department
                  of Labor is the lead Federal agency for this core functional area, with HHS serving as a
                  Support agency. Therefore the Worker Safety and Health core functional area is not included
                  in our list of HHS’s 17 core functional areas of ESF-8.



HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                    31
                       ESF-8 may seek individual clinical public health and medical care
                       specialists from the Department of Veterans Affairs (VA) to assist State,
                       tribal, and local public health and medical personnel.
                       ESF-8 may engage civilian volunteers, such as Medical Reserve Corps
                       (MRC), to assist State, tribal, and local public health and medical
                       personnel.
                  4. Health/Medical/Veterinary Equipment and Supplies. In addition to
                     deploying assets from the Strategic National Stockpile (SNS), ESF-8
                     may request DOD or the VA to provide medical equipment, durable
                     medical equipment, and supplies, including medical, diagnostic, and
                     radiation-detecting devices, pharmaceuticals, and biologic products in
                     support of immediate medical response operations and for restocking
                     health care facilities in an area affected by a major disaster or emergency.
                     When a veterinary response is required, assets may be requested from the
                     National Veterinary Stockpile (NVS), which is managed by the
                     Department of Agriculture (USDA) Animal and Plant Health Inspection
                     Service (APHIS).
                  5. Patient Evacuation. ESF-8 is responsible for transporting seriously ill
                     (i.e., seriously ill describes persons whose illness or injury is of such
                     severity that there is cause for immediate concern, but there is not
                     imminent danger to life) or injured patients, and medical needs
                     populations from casualty collection points in the impacted area to
                     designated reception facilities. ESF-8 coordinates the Federal response
                     in support of emergency triage and pre-hospital treatment, patient
                     tracking, and distribution. This effort is coordinated with Federal, State,
                     tribal, and local emergency medical services officials.
                       ESF-8 may request DOD, VA, and DHS/Federal Emergency
                       Management Agency (FEMA), via the national ambulance contract, to
                       provide support for evacuating seriously ill or injured patients. Support
                       may include providing transportation assets, operating and staffing
                       NDMS Federal Coordination Centers, and processing and tracking
                       patient movements from collection points to their final destination
                       reception facilities.
                       DOD is the only recognized Federal partner responsible for regulating
                       and tracking patients transported on DOD assets to appropriate treatment
                       facilities (e.g., NDMS hospitals).
                  6. Patient Care. ESF-8 may task HHS components to engage civil service
                     personnel, the PHSCC, the regional offices, and States to engage civilian
                     volunteers and request the VA and DOD to provide available personnel
                     to support pre-hospital triage and treatment, inpatient hospital care,



HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)      32
                       outpatient services, pharmacy services, and dental care to victims who
                       are seriously ill, injured, or suffer from chronic illnesses who need
                       evacuation assistance, regardless of location.
                       ESF-8 may assist with isolation and quarantine measures and with point
                       of distribution operations (mass prophylaxis and vaccination). Health
                       care providers and support staff will ensure appropriate patient
                       confidentiality is maintained, including Health Insurance Portability and
                       Accountability Act privacy and security standards, where applicable.
                  7. Safety and Security of Drugs, Biologics, and Medical Devices. ESF-8
                     may task HHS components to ensure the safety and efficacy of and
                     advise industry on security measures for regulating human and
                     veterinary drugs, biologics (including blood and vaccines), medical
                     devices (including radiation emitting and screening devices), and other
                     HHS-regulated products.
                  8. Blood, Organs, and Blood Tissues. ESF-8 may task HHS components
                     and request assistance from other ESF-8 partner organizations to monitor
                     and ensure the safety, availability, and logistical requirements of blood,
                     organs, and tissues. This includes the ability of the existing supply chain
                     resources to meet the manufacturing, testing, storage, and distribution of
                     these products.
                  9. Food Safety and Security. ESF-8, in cooperation with ESF-11, may task
                     HHS components and request assistance from other ESF-8 partner
                     organizations to ensure the safety and security of federally regulated
                     foods. (Note: HHS, through the Food and Drug Administration (FDA),
                     has statutory authority for all domestic and imported food except meat,
                     poultry, and egg products, which are under the authority of the USDA
                     Food Safety and Inspection Service. The Environmental Protection
                     Agency (EPA) establishes tolerance levels for pesticide residues.)
                  10. Agriculture Safety and Security. ESF-8, in coordination with ESF-11,
                      may task HHS components to ensure the health, safety, and security of
                      food-producing animals, animal feed, and therapeutics. (Note: HHS,
                      through the FDA, has statutory authority for animal feed and for the
                      approval of animal drugs intended for both therapeutic and non-
                      therapeutic use in food animals as well as companion animals.)
                  11. All-Hazards Public Health and Medical Consultation, Technical
                      Assistance, and Support. ESF-8 may task HHS components and regional
                      offices and request assistance from other ESF-8 partner organizations in
                      assessing public health, medical, and veterinary medical effects resulting
                      from all hazards. Such tasks may include assessing exposures on the
                      general population and on high-risk population groups; conducting field



HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)     33
                       investigations, including collection and analysis of relevant samples;
                       providing advice on protective actions related to direct human and
                       animal exposures, and on indirect exposure through contaminated food,
                       drugs, water supply, and other media; and providing technical assistance
                       and consultation on medical treatment, screening, and decontamination
                       of injured or contaminated individuals. While State, tribal, and local
                       officials retain primary responsibility for victim screening and
                       decontamination operations, ESF-8 can deploy the National Medical
                       Response Teams (NMRT) to assist with victim decontamination.
                  12. Behavioral Health Care. ESF-8 may task HHS components and request
                      assistance from other ESF-8 partner organizations in assessing mental
                      health and substance abuse needs, including emotional, psychological,
                      psychological first aid, behavioral, or cognitive limitations requiring
                      assistance or supervision; providing disaster mental health training
                      materials for workers; providing liaison with assessment, training, and
                      program development activities undertaken by Federal, State, tribal, or
                      local mental health and substance abuse officials; and providing
                      additional consultation as needed.
                  13. Public Health and Medical Information. ESF-8 provides public health,
                      disease, and injury prevention information that can be transmitted to
                      members of the general public who are located in or near areas affected
                      in languages and formats that are understandable to individuals with
                      limited English proficiency and individuals with disabilities.
                  14. Vector Control. ESF-8 may task HHS components and request
                      assistance from other ESF-8 partner organizations, as appropriate, in
                      assessing the threat of vector-borne diseases; conducting field
                      investigations, including the collection and laboratory analysis of
                      relevant samples; providing vector control equipment and supplies;
                      providing technical assistance and consultation on protective actions
                      regarding vector-borne diseases; and providing technical assistance and
                      consultation on medical treatment of victims of vector-borne diseases.
                  15. Public Health Aspects of Potable Water/Wastewater and Solid Waste.
                      ESF-8 may task HHS components and request assistance from other
                      ESF-8 organizations to assist in assessing potable water, wastewater,
                      solid waste disposal, and other environmental health issues related to
                      public health in establishments holding, preparing, and/or serving food,
                      drugs, or medical devices at retail and medical facilities, as well as
                      examining and responding to public health effects from contaminated
                      water; conducting field investigations, including collection and
                      laboratory analysis of relevant samples; providing equipment and
                      supplies as needed; and providing technical assistance and consultation.


HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)    34
                  16. Mass Fatality Management. ESF-8, when requested by State, tribal, or
                      local officials, in coordination with its partner organizations, will assist
                      the jurisdictional medico-legal authority and law enforcement agencies
                      in the tracking and documenting of human remains and associated
                      personal effects; reducing the hazard presented by chemically,
                      biologically, or radiologically contaminated human remains (when
                      indicated and possible); establishing temporary morgue facilities;
                      determining the cause and manner of death; collecting ante mortem data
                      in a compassionate and culturally competent fashion from authorized
                      individuals; performing postmortem data collection and documentation;
                      identifying human remains using scientific means (e.g., dental,
                      pathology, anthropology, fingerprints, and, as indicated, DNA samples);
                      and preparing, processing, and returning human remains and personal
                      effects to the authorized person(s) when possible; and providing
                      technical assistance and consultation on fatality management and
                      mortuary affairs. In the event that caskets are displaced, ESF-8 assists in
                      identifying the human remains, recasketing, and reburial in public
                      cemeteries.
                       ESF-8 may task HHS components and request assistance from other
                       ESF-8 partner organizations, as appropriate, to provide support to
                       families of victims during the victim identification mortuary process.
                  17. Veterinary Medical Support. ESF-8 will provide veterinary assistance to
                      ESF-11. Support will include the amelioration of zoonotic disease and
                      caring for research animals where ESF-11 does not have the requisite
                      expertise to render appropriate assistance.
                       ESF-8 will assist ESF-11 as required to protect the health of livestock
                       and companion and service animals by ensuring the safety of the
                       manufacture and distribution of foods and drugs given to animals used
                       for human food production. ESF-8 supports DHS/FEMA together with
                       ESF-6 – Mass Care, Emergency Assistance, Housing, and Human
                       Services, ESF-9 – Search and Rescue, and ESF-11 to ensure an
                       integrated response to provide for the safety and well-being of household
                       pets and service and companion animals.




HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)      35
                  APPENDIX C
                  National Planning Scenarios
                  Fifteen National Planning Scenarios describe specific incidents that may
                  occur, ranging from hurricanes and influenza pandemics to biological
                  attacks. Agencies with Emergency Support Function responsibilities can
                  use the 15 National Planning Scenarios as a guide to developing
                  preparedness plans and participating in activities for these specific
                  incidents that may require unique plans and resources beyond all-hazards
                  plans. The 15 National Planning Scenarios are: 60
                                  1. Biological Attack—Aerosolized Anthrax
                                  2. Biological Attack—Botulinum Food Contamination
                                  3. Biological Attack—Pandemic Influenza
                                  4. Biological Attack—Pneumonic Plague
                                  5. Biological Attack—Foreign Animal Disease
                                  6. Chemical Attack—Blister Agent
                                  7. Chemical Attack—Chlorine Tank Explosion
                                  8. Chemical Attack—Toxic Industrial Chemicals
                                  9. Chemical Attack—Nerve Agent
                                  10. Cyber Attack—Cyber Security
                                  11. Explosives Attack—Bombing Using Improvised Explosive
                                      Devices
                                  12. Explosives Attack—Improvised Nuclear Device
                                  13. Natural Disaster—Major Earthquake
                                  14. Natural Disaster—Major Hurricane
                                  15. Radiological Attack—Radiological Dispersal Devices and
                                      Radiological Explosive Devices




                  60
                     Federal Emergency Management Agency, National Preparedness Guidelines, pp. 4–5.
                  Accessed at
                  http://www.fema.gov/pdf/emergency/NRF/National_Preparedness_Guidelines.pdf on June 21,
                  2011.



HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)              36
                            APPENDIX D
                            The National Planning Scenario Playbooks and Emergency Support Function-8
                            The 15 National Planning Scenario (NPS) playbooks contain written guidance that addresses Federal agencies’
                            responsibilities when an incident (i.e., emergency or disaster) occurs. The Department of Health and Human Services
                            (HHS) is assigned public health and medical services responsibilities for Emergency Support Function #8 (ESF-8).
                            Within ESF-8 are 17 core functional areas for which HHS is responsible when an incident occurs. The chart below
                            indicates which of the 17 core functional areas are addressed in the HHS’s 14 NPS playbooks.


                                              Table D-1 The 17 Core Functional Areas of ESF-8 and the 15 NPS Playbooks
                                 #1               #2              #3         #4                   #5             #6                #7              #8               #9            #10               #11                #12                  #13                  #14                     #15




                                                                                                                                                                                                                       Improvised Nuclear
                                                                             Pneumonic Plague




                                                                                                                                                                                                                                            Major Earthquake
                                                                                                                                                                                                    Explosive Device




                                                                                                                                                                                                                                                                                     Explosive Device
                                                                                                                                                                                                                                                                                     Dispersal Device
                                                                                                                                                                                                                                                                                     and Radiological
                                                                                                                                                                                                                                                                  Major Hurricane
                                                Botulinum Food




                                                                                                                                                                                  Cyber Security*
                                                                                                Foreign Animal




                                                                                                                                                 Toxic Industrial
                                                Contamination




                                                                                                                                 Chlorine Tank
 Core Functional Areas




                                                                                                                 Blister Agent




                                                                                                                                                                    Nerve Agent




                                                                                                                                                                                                                                                                                     Radiological
                                Aerosolized




                                                                                                                                                                                                    Improvised
                                                                 Pandemic




                                                                                                                                 Explosion



                                                                                                                                                 Chemical
                                                                 Influenza




                                                                                                Disease
                                Anthrax




                                                                                                                                                                                                                       Device
Assessment of public
health and medical needs
                                   x                x              x          x                     x             x                  x                x              x                                   x                  x                x                     x                       x
Health surveillance                x                x              x          x                     x             x                  x                x              x                                   x                  x                x                     x                       x
Medical care personnel             x                x              x          x                     x             x                  x                x              x                                   x                  x                x                     x                       x
Health/medical/veterinary
equipment and supplies
                                   x                x              x          x                     x             x                  x                x              x                                   x                  x                x                     x                       x
Patient evacuation                 x                x              x          x                     x             x                  x                x              x                                   x                  x                x                     x                       x
Patient care                       x                x              x          x                     x             x                  x                x              x                                   x                  x                x                     x                       x
Safety and security of
drugs, biologics, and              x                x              x          x                     x             x                  x                x              x                                   x                  x                x                     x                       x
medical devices

Blood and blood products           x                x                         x                     x             x                  x                x              x                                   x                  x                x                     x                       x
Food safety and security           x                x              x          x                     x             x                  x                x              x                                   x                  x                x                     x                       x
Agriculture safety and
security
                                   x                x              x          x                     x             x                  x                x              x                                   x                  x                x                     x                       x
                                                                                                                                                                                                                                                               continued on next page




          HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                                                                                                                                   37
                                 Table D-1 The 17 Core Functional Areas of ESF-8 and the 15 NPS Playbooks, Continued
                                 #1             #2              #3         #4                   #5             #6                #7              #8               #9            #10               #11                #12                  #13                #14                        #15




                                                                                                                                                                                                                     Improvised Nuclear
                                                                           Pneumonic Plague




                                                                                                                                                                                                                                          Major Earthquake
                                                                                                                                                                                                  Explosive Device




                                                                                                                                                                                                                                                                                    Explosive Device
                                                                                                                                                                                                                                                                                    Dispersal Device
                                                                                                                                                                                                                                                                                    and Radiological
                                                                                                                                                                                                                                                             Major Hurricane
                                              Botulinum Food




                                                                                                                                                                                Cyber Security*
                                                                                              Foreign Animal




                                                                                                                                               Toxic Industrial
                                              Contamination




                                                                                                                               Chlorine Tank
Core Functional Areas




                                                                                                               Blister Agent




                                                                                                                                                                  Nerve Agent




                                                                                                                                                                                                                                                                                    Radiological
                                Aerosolized




                                                                                                                                                                                                  Improvised
                                                               Pandemic




                                                                                                                               Explosion



                                                                                                                                               Chemical
                                                               Influenza




                                                                                              Disease
                                Anthrax




                                                                                                                                                                                                                     Device
All-hazard public health
and medical consultation,
technical assistance, and
                                   x              x              x          x                     x             x                  x                x              x                                   x                  x                x                  x                           x
support
Behavioral health care             x              x              x          x                     x             x                  x                x              x                                   x                  x                x                  x                           x
Public health and
medical information
                                   x              x              x          x                     x             x                  x                x              x                                   x                  x                x                  x                           x
Vector control                     x                             x          x                                   x                  x                               x                                   x                  x                x                  x                           x
Potable
water/wastewater and               x              x              x          x                     x             x                  x                x              x                                   x                  x                x                  x                           x
solid waste disposal
Mass fatality
management, victim
identification, and                x              x              x          x                     x             x                  x                x              x                                   x                  x                x                  x                           x
decontamination of
remains
Veterinary medical
support
                                   x              x              x          x                     x             x                  x                x              x                                   x                  x                                   x                           x
* No NPS playbook has been written for cyber security. Gray-shaded boxes indicate that planning for the listed core functional area was not found in the playbooks. However, HHS has written incident response
plans to address these areas. Source: Federal Emergency Medical Agency, ESF-8-Public Health and Medical Services Annex. Accessed at http://www.fema.gov/pdf/emergency/nrf/nrf-esf-08.pdf, on May 15,
2011. DHS, National Preparedness Guidelines, September 2007, p. 3. Accessed at http://www.fema.gov/pdf/emergency/NRF/National_Preparedness_Guidelines.pdf on June 21, 2011.




           HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                                                                                                                             38
                          APPENDIX E
                          Department of Health and Human Services Response to Three Selected Incidents in 2010 and 2011
                          The Department of Health and Human Services (HHS) provides resources to States when an incident (i.e., emergency or
                          disaster) occurs. HHS is assigned public health and medical services responsibilities as the lead for the Emergency
                          Support Function 8 (ESF-8), Public Health and Medical Services. Within ESF-8 are 17 core functional areas for which
                          HHS is responsible. The chart below describes three selected incidents—Red River flooding in North Dakota, March
                          2010; a tornado in Joplin, Missouri, May 2011; and Hurricane Irene along the East Coast, August 2011—and the resources
                          HHS provided, or was prepared to provide, to these States during incident response.


                                    Table E-1 HHS Resources Provided to Affected States in 2010 and 2011
                                                                             HHS Resource(s) Provided
Core Functional Area                        Incident             State(s)
                                                                             Objective            Strategy               Response
                                                                                                                         • ESF-8 personnel deployed to North Dakota
                                                                                                                            Emergency Operations Center (EOC) and
                                                                                                                            assessed potential damage from flooding
                                                                                                                         • National Disaster Medical System (NDMS)
                                                                                                                            activated
                                                                                                                         • Incident Response Coordination Team
                                                                                                                            (IRCT)/Logistics Response Assessment Team
                                                                                                                            (LRAT) deployed
                                                                                                  Assess public health
                                                                             To evaluate the                             • Administration for Children and Families (ACF)
                                                                                                  and medical
 1. Assessment of Public                  Red River                          need for public                                assessed impact to human services
                                                           North Dakota                           infrastructure
    Health/Medical Needs                   flooding                          health and
                                                                                                  threatened by          • Centers for Disease Control (CDC) monitored
                                                                             medical support                                reports from state health departments, assessed
                                                                                                  flooding
                                                                                                                            need for technical assistance on vector control
                                                                                                                            (i.e., eradicating mammals, birds, or insects that
                                                                                                                            transmit diseases such as West Nile virus)
                                                                                                                         • Food and Drug Administration (FDA) conducted
                                                                                                                            risk assessments
                                                                                                                         • Substance Abuse and Mental Health Services
                                                                                                                            Administration (SAMHSA) assessed impact to
                                                                                                                            behavioral health systems
                                                                                                                                                        continued on next page




        HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                   39
                                 Table E-1 HHS Resources Provided to Affected States in 2010 and 2011, Continued
                                                                            HHS Resource(s) Provided
 Core Functional Area                    Incident              State(s)
                                                                            Objective            Strategy                Response
                                                                                                                         •   NDMS activated
                                                                                                                         •   ESF-8 Lead/Regional Emergency Coordinator
                                                                                                                             (REC) to MO—Conducted assessments of
                                                                                                 Assess potential            medical infrastructure damage to hospitals and
                                                                                                 damage to health            long-term-care facilities
                                                                            Ensure the           care and long-term-     •   CDC monitored reports from State health
                                                                            integrity of the     care facilities and         departments, provided technical assistance on
                                    Joplin tornado              Missouri    public health        other infrastructure        vector control
                                                                            and medical          that may have           •   Regional Incident Support Team (RIST)/IRCT
                                                                            infrastructure       resulted from               deployed
                                                                                                 damage because of       •   ACF assessed impact to human services
                                                                                                 winds, flooding, etc.   •   At-Risk Behavioral Health Coordination (ABC)/
                                                                                                                             ACF monitored child care support to ESF-6
                                                                                                                         •   SAMHSA assessed impact on behavioral health
                                                                                                                             systems
                                                                                                                         •   NDMS activated
                                                                            Ensure the                                   •   ACF assessed impact to human services
                                                         CT, DC, DE,
                                                                            integrity of the                             •   CDC monitored reports from State health
                                                         MA, MD, NC,
                                                                            public health        Support Local Public        departments, technical assistance on vector
                                  Hurricane Irene         NJ, NY, PA,
                                                                            and medical          Health Agency               control
                                                       PR, RI, SC, VT,
                                                            VA, USVI
                                                                            infrastructure                               •   FDA conducted risk assessments
                                                                                                                         •   SAMHSA assessed impact on behavioral health
                                                                                                                             systems
                                                                            Maintain             Monitor public health   •   Hospital Preparedness Program (HPP)/ Hospital
                                         Red River
                                                          North Dakota      situational          surveillance reports        Available Beds for Emergencies and Disasters
                                          flooding
                                                                            awareness            and systems                 (HAvBed) bed status reports reviewed
                                                                                                 Monitor public health   •   HPP/HAvBed bed status reports reviewed
                                                                                                 surveillance reports
                                                                            Maintain
                                                                                                 and systems; report
                                    Joplin tornado              Missouri    situational
                                                                                                 on anomalies
                                                                            awareness
2. Health Surveillance
                                                                                                 CDC Epidemiology        •   HPP/HAvBED bed status reports reviewed
                                                         CT, DC, DE,        Evaluate the         team (CDC EPI)
                                                         MA, MD, NC,        need to provide      responds under its
                                  Hurricane Irene         NJ, NY, PA,       public health        own authorities,
                                                       PR, RI, SC, VT,      and medical          conducts interviews,
                                                            VA, USVI        support              and records abstract
                                                                                                 reviews
                                                                                                                                                       continued on next page


       HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                    40
                                Table E-1 HHS Resources Provided to Affected States in 2010 and 2011, Continued
                                                                             HHS Resource(s) Provided
Core Functional Area                        Incident             State(s)
                                                                             Objective            Strategy                Response
                                                                                                  Evaluate the need       • Six on-call Disaster Medical Assistance Team
                                                                             Evaluate the
                                                                                                  for NDMS support           (DMAT) identified to support potential emergency
                                                                             need to provide
                                                                                                  and identify Medical       decompression and shelter operations; plus 2
                                                                             public health
                                                                                                  Strike Team (MST)          24-person teams identified, if needed
                                                                             and medical
                                                                             support
                                                                                                  and IRCT on the         • One IRCT deployed
                                                                                                  basis of capability
                                                                             Evaluate the                                 •   Health and Safety Plan (HASP) used
                                         Red River                           need to provide      Prepare safety
                                                           North Dakota
                                          flooding                           public health        briefing for alerted
                                                                             and medical          teams
                                                                             support
                                                                             Evaluate the         Be prepared to          •   ABC coordinated behavioral health stakeholders to
                                                                             need to provide      provide mental              identify needs/materials and provide technical
                                                                             public health        health and stress           assistance
                                                                             and medical          management
                                                                             support              technical assistance
                                                                                                                          •   Two standard DMATs determined whether the
                                                                                                  Monitor public health
                                                                             Provide life-                                    State was unable to handle health care
                                                                                                  surveillance reports
                                                                             saving medical                                   infrastructure damage; each team had capability to
 3. Medical Care                                                                                  and systems; report
                                                                             capability                                       perform emergency decompression, as required
    Personnel                                                                                     on anomalies
                                                                                                  Provide necessary       •   MST deployed for force protection
                                     Joplin tornado              Missouri                         communication           •   Behavioral health specialist deployed to support
                                                                             Provide force        equipment, training,        responders
                                                                             protection for       Personnel Protective    •   HASP used
                                                                             deployed             Equipment, and
                                                                             personnel            medical
                                                                                                  countermeasures, if
                                                                                                  required
                                                                             Evaluate the                                 •   Three IRCT deployed
                                                                             need to provide                              •   Five DMAT deployed to support States
                                                          CT, DC, DE,
                                                                             public health                                •   One LRAT deployed
                                                          MA, MD, NC,
                                                                             and medical          Evaluate the need       •   One Rapid Deployable Force (RDF) deployed
                                                                             support and          for public health and   •   HASP used
                                   Hurricane Irene         NJ, NY, PA,
                                                                             ensure the           medical resources in
                                                        PR, RI, SC, VT,
                                                                             integrity of the     support of the State
                                                             VA, USVI
                                                                             health and
                                                                             medical
                                                                             infrastructure
                                                                                                                                                          continued on next page


        HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                      41
                                Table E-1 HHS Resources Provided to Affected States in 2010 and 2011, Continued
                                                                             HHS Resource(s) Provided
Core Functional Area                        Incident              State(s)
                                                                             Objective            Strategy                  Response
                                                                                                                            •   One IRCT cache deployed
                                                                                                                            •   One DMAT cache deployed
                                                                                                  Augment local health      •   Two Federal Medical Station caches deployed
                                                                             Provide life-        care with medical         •   Seven MST team kits deployed
                                         Red River
                                                            North Dakota     saving medical       personnel or logistical   •   Three Lab caches deployed
                                          flooding
                                                                             capability           support to minimize       •   Seven Pharmacy caches deployed
                                                                                                  patient care shortfalls   •   Seven Electronic Medical Record kits deployed
                                                                                                                            •   Seventeen IT/Telecom kits deployed
                                                                                                                            •   Three Medical Mobile Kits (MMK) deployed
                                                                                                                            •   Two IRCT caches deployed
                                                                                                                            •   One Deployable Portable Morgue Unit (DPMU)
 4. Health/Medical/                                                                               Augment local health
                                                                                                                                deployed
    Veterinary Equipment                                                     Provide life-        care with medical
                                                                                                                            •   One DMPU Family Assistance Center Team
    and Supplies                     Joplin tornado              Missouri    saving medical       personnel or logistical
                                                                                                                                (FACT) cache deployed
                                                                             capability           support to minimize
                                                                                                                            •   Two Electronic Medical Record kits deployed
                                                                                                  patient care shortfalls
                                                                                                                            •   Three MMKs deployed
                                                                                                                            •   Two IT/Telecom kits deployed
                                                                                                                            •   One IRCT cache deployed
                                                            CT, DC, DE,                           Augment local health      •   Two DMAT caches deployed
                                                           MA, MD, NC,       Provide life-        care with medical         •   Two Pharmacy caches deployed
                                   Hurricane Irene      NJ, NY, PA, PR,      saving medical       personnel or logistical   •   Two Lab caches deployed
                                                        RI, SC, VT, VA,      capability           support to minimize       •   Five MMKs deployed
                                                                  USVI                            patient care shortfalls   •   Twelve Electronic Medical Record kits deployed
                                                                                                                            •   Thirteen IT/Telecom kits deployed
                                                                             Evaluate the                                   •   No State requests or HHS actions
                                                                             need to provide
                                         Red River                                                Assess the need for
                                                            North Dakota     public health
                                          flooding                                                patient movement
                                                                             and medical
                                                                             support
                                                                                                  Support patient           •   No State requests or HHS actions
                                                                                                  movement either by
                                                                             Provide life-        Federal Emergency
 5. Patient Evacuation               Joplin tornado              Missouri    saving medical       Medical Agency
                                                                             capability           (FEMA) ambulance
                                                                                                  contract or NDMS
                                                                                                  evacuation
                                                            CT, DC, DE,                                                     •   National Ambulance Contract activated in NY
                                                           MA, MD, NC,
                                   Hurricane Irene      NJ, NY, PA, PR,      None noted           None noted
                                                        RI, SC, VT, VA,
                                                                  USVI
                                                                                                                                                         continued on next page
        HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                     42
                                Table E-1 HHS Resources Provided to Affected States in 2010 and 2011, Continued
                                                                             HHS Resource(s) Provided
Core Functional Area                        Incident             State(s)
                                                                             Objective            Strategy                   Response
                                                                             Evaluate the                                    •    Public Health Emergency (PHE) declared by the
                                                                             need to provide                                      Secretary of HHS
                                         Red River
                                                                                                                             •
                                                                                                                                                           61
                                                           North Dakota      public health        None noted                      CMS 1135 waiver requests
                                          flooding
                                                                             and medical
                                                                             support
                                                                                                  Provide medical            •    PHE declared by the Secretary of HHS
                                                                             Provide life-
                                                                                                  support teams with         •    CMS 1135 waiver requests
                                                                             saving medical
                                                                             capability
                                                                                                  strike team kits and       •    Four DMAT alerted for emergency
                                                                                                  logistic support                decompression/augmentation
 6. Patient Care                     Joplin tornado              Missouri                         Augment local health        •   No State requests or HHS actions
                                                                                                  care with medical
                                                                             Provide life-
                                                                                                  personnel or logistic
                                                                             saving medical
                                                                                                  support to minimize
                                                                             capability
                                                                                                  patient care
                                                                                                  shortfalls
                                                          CT, DC, DE,                                                        •    PHE declared by the Secretary of HHS
                                                          MA, MD, NC,                                                        •    CMS 1135 waiver requests
                                   Hurricane Irene         NJ, NY, PA,       None noted           None noted                 •    Five DMAT shelter support teams deployed
                                                        PR, RI, SC, VT,                                                      •    Three IRCT deployed to affected regions
                                                             VA, USVI
                                                                                                  Initiate actions to         •   REC monitored potential Durable Medical
                                                                                                  deploy and deliver              Equipment (DME) requests
                                                                             Evaluate the         appropriate Strategic
 7. Safety and Security of                                                   need to provide      National Stockpile
                                         Red River
    Drugs, Biologics, and                                  North Dakota      public health        (SNS) material to a
                                          flooding
    Medical Devices                                                          and medical          Federal Mobilization
                                                                             support              Center or other
                                                                                                  designated reception
                                                                                                  location, if requested
                                                                                                                                                                  continued on next page




                          61
                             When a public health emergency is declared, the Centers for Medicare & Medicaid Services (CMS) is permitted to temporarily waive or modify
                          Medicare, Medicaid, and the Children’s Health Insurance Program benefit requirements to assist in incident response efforts. This is commonly referred
                          to as the 1135 waiver request and is submitted by affected States. ASPR, Public Health Emergency Declarations Q&A. Accessed at
                          http://www.phe.gov/Preparedness/legal/Pages/phe-qa.aspx on May 31, 2012.




        HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                                43
                                  Table E-1 HHS Resources Provided to Affected States in 2010 and 2011, Continued
                                                                             HHS Resource(s) Provided
Core Functional Area                        Incident             State(s)
                                                                             Objective            Strategy              Response
                                                                                                  Assess risk to the    •   SAMHSA monitored methadone movement and
                                                                             Ensure the           public health and         security
                                                                             integrity of the     medical assets,
                                     Joplin tornado              Missouri    public health        including safety of
                                                                             and medical          human, biologics,
                                                                             infrastructure       veterinary drugs,
                                                                                                  and medical devices
                                                          CT, DC, DE,                                                   •   No State requests or HHS actions
                                                          MA, MD, NC,
                                   Hurricane Irene         NJ, NY, PA,       None noted           None noted
                                                        PR, RI, SC, VT,
                                                             VA, USVI
                                         Red River                                                                      •   Blood supply reports for area provided to State
                                                           North Dakota      None noted           None noted
                                          flooding
                                                                                                  Assess blood and      •   Blood supply reports for area provided to State
                                                                             Provide life-
                                                                                                  blood product
                                     Joplin tornado              Missouri    saving medical
8. Blood, Organs, and Blood                                                                       availability and
                                                                             capability
   Tissues                                                                                        mitigate shortages
                                                          CT, DC, DE,                                                   •   Blood supply reports for area provided to States
                                                          MA, MD, NC,
                                   Hurricane Irene         NJ, NY, PA,       None noted           None noted
                                                        PR, RI, SC, VT,
                                                             VA, USVI
                                                                                                  Perform               •   REC monitored State actions and requests
                                                                                                  assessments of
                                                                                                  needs for vector
                                                                             Assess integrity
                                         Red River                                                control, food and
                                                           North Dakota      of public health
                                          flooding                                                water safety, and
                                                                             infrastructure
                                                                                                  sanitation. Support
                                                                                                  State requests for
                                                                                                  assistance
9. Food Safety and Security                                                                       Assess blood and      •   Blood supply reports for area provided to State
                                                                             Provide life-
                                                                                                  blood product
                                     Joplin tornado              Missouri    saving medical
                                                                                                  availability and
                                                                             capability
                                                                                                  mitigate shortages
                                                          CT, DC, DE,                                                   •   Blood supply reports for area provided to States
                                                          MA, MD, NC,
                                   Hurricane Irene         NJ, NY, PA,       None noted           None noted
                                                        PR, RI, SC, VT,
                                                             VA, USVI
                                                                                                                                                       continued on next page
        HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                    44
                                 Table E-1 HHS Resources Provided to Affected States in 2010 and 2011, Continued
                                                                              HHS Resource(s) Provided
Core Functional Area                         Incident             State(s)
                                                                              Objective            Strategy               Response

                                          Red River                                                                       •   No State requests or HHS actions
                                                            North Dakota      None noted           None noted
                                           flooding
                                                                              Ensure the           Provide technical      •   CDC assessed vaccine and animal control efforts
                                                                              integrity of the     assistance for
                                      Joplin tornado              Missouri    public health and    protection of animal
10.   Agriculture Safety and                                                  medical              life in coordination
      Security                                                                infrastructure       with ESF-11
                                                           CT, DC, DE,                                                    •   FDA food safety consultants deployed
                                                           MA, MD, NC,                                                    •   Technical assistance provided to ESF-11
                                    Hurricane Irene         NJ, NY, PA,       None noted           None noted
                                                         PR, RI, SC, VT,
                                                              VA, USVI
                                          Red River                                                                       •   REC monitored State actions and requests
                                                            North Dakota      None noted           None noted
                                           flooding                                                                       •   PHS subject matter expert (SME) deployed
                                                                                                                          •   REC assisted hospital in setup of mobile medical
                                                                                                                              unit
                                                                                                   Provide necessary      •   ACF collaborated with ESF-6 and MO Division of
                                                                                                   communication              Family Services, Child Care and Development
                                                                              Provide force
                                                                                                   equipment, training,       Fund
                                                                              protection for
                                                                                                   personnel protective
                                      Joplin tornado              Missouri    deployed                                    •   CDC vaccine and animal control efforts assessed
                                                                                                   equipment (PPE),
                                                                              personnel                                   •   DMORT needs assessed
                                                                                                   and medical
                                                                                                   countermeasures, if    •   FACT engaged
                                                                                                   required               •   SAMHSA psychological first aid training provided
11. All-Hazards Public
    Health and Medical                                                                                                    •   SAMHSA crisis counseling training provided
    Consultation, Technical
    Assistance, and Support                                                                                               •   Monitored State health departments, water
                                                                                                                              supplies, and technical assistance for vector
                                                                                                                              control
                                                                                                                          •   CDC EPI conducted conference calls with States
                                                           CT, DC, DE,
                                                                                                                          •   Health Resources and Services Administration
                                                           MA, MD, NC,
                                                                              Provide technical    Technical                  (HRSA) contacted grantees and partners to
                                    Hurricane Irene         NJ, NY, PA,
                                                                              assistance           assistance provided        determine impact to community-based services
                                                         PR, RI, SC, VT,
                                                                                                                              delivery
                                                              VA, USVI
                                                                                                                          •   HHS Critical Infrastructure support to American
                                                                                                                              Red Cross Blood HQ in Baltimore
                                                                                                                          •   SAMHSA provided behavioral health technical
                                                                                                                              assistance
                                                                                                                                                           continued on next page


         HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                     45
                                Table E-1 HHS Resources Provided to Affected States in 2010 and 2011, Continued
                                                                             HHS Resource(s) Provided
Core Functional Area                        Incident             State(s)
                                                                             Objective            Strategy               Response
                                                                                                                         •   REC monitored State actions and requests
                                                                                                  Be prepared to         •   ABC coordinated behavioral health stakeholders to
                                                                             Monitor              provide mental             identify needs/materials and provided technical
                                                                             transition to        health and stress          assistance
                                         Red River
                                                                             recovery             management             •   SAMHSA provided technical assistance, crisis
                                                           North Dakota                           technical assistance       counseling program grants, and monitored impact
                                          flooding
                                                                                                                             on behavioral health systems
                                                                                                  Plan for recovery      •   ABC coordinated behavioral health stakeholders to
                                                                             Monitor
                                                                                                  operations,                ensure that behavioral health was included in
                                                                             transition to
                                                                                                  including mental           recovery efforts
                                                                             recovery
                                                                                                  health support
                                                                                                                         •   Deployed behavioral health specialist to DPMU
                                                                                                  Plan for recovery
                                                                             Monitor                                     •   ABC coordinated behavioral health stakeholders to
                                                                                                  operations
                                                                             transition to                                   ensure that behavioral health was included in
                                                                                                  including, mental
                                                                             recovery                                        recovery efforts
                                                                                                  health support
                                                                                                                         •   SAMHSA assessed and monitored the relocation
                                                                                                                             of methadone, patients, and service providers
                                                                                                                         •   SAMHSA provided crisis counseling program and
                                                                                                                             SAMHSA emergency response grants (SERG)
12. Behavioral Health Care
                                                                                                                         •   SAMHSA provided technical assistance and
                                                                             Ensure the
                                                                                                  Provide behavioral         consulted with State regarding behavioral health
                                                                             integrity of the
                                                                                                  health and stress          programs
                                     Joplin tornado              Missouri    public health and
                                                                                                  management             •   American Red Cross provided disaster mental
                                                                             medical
                                                                                                  technical assistance       health services
                                                                             infrastructure
                                                                                                                         •   SAMHSA administered crisis counseling program
                                                                                                                             and SERG grants
                                                                                                                         •   SAMHSA provided communication materials for
                                                                                                                             State and local dissemination and ABC technical
                                                                                                                             assistance to HHS recovery personnel
                                                                                                                         •   ABC coordinated behavioral health stakeholders
                                                                                                  Monitor potential
                                                                             Maintain                                        and ensured recovery needs were addressed and
                                                                                                  behavioral health
                                                                             situational                                     emergent needs were identified
                                                                                                  concerns of affected
                                                                             awareness                                   •   SAMHSA communicated with local, regional, and
                                                                                                  populations
                                                                                                                             State stakeholders
                                                          CT, DC, DE,                                                    •   SAMHSA and ABC monitored and coordinated
                                                          MA, MD, NC,                                                    •   SAMHSA grant funding info passed to VA DOH
                                   Hurricane Irene         NJ, NY, PA,       None noted           None noted             •   SAMHSA provided crisis counseling grants
                                                        PR, RI, SC, VT,                                                  •   SAMHSA provided communication materials for
                                                             VA, USVI                                                        statewide and local dissemination
                                                                                                                                                         continued on next page
        HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                    46
                               Table E–1 HHS Resources Provided to Affected States in 2010 and 2011, Continued
                                                                             HHS Resource(s) Provided
Core Functional Area                        Incident             State(s)
                                                                             Objective            Strategy               Response
                                                                                                  Provide subject        •   REC monitored State actions and requests
                                                                             Assess the
                                                                                                  matter expertise on    •   CDC assisted in posting public messages on Web
                                                                                                  risk communication         site
                                         Red River                           integrity of the
                                          flooding
                                                           North Dakota
                                                                             public health
                                                                                                  for the public         •   Public affairs officer (PAO) contacted State officials
                                                                             infrastructure
                                                                                                  regarding health       •   SAMHSA provided communication materials for
                                                                                                  concerns after             State and local dissemination
                                                                                                  flooding
                                                                                                                         •   Public health emergency information published on
                                                                                                                             the Assistant Secretary for Preparedness and
                                                                                                                             Response’s Web site
                                                                             Ensure the                                  •   SAMHSA published stress management
13. Public Health and                                                        integrity of the     Coordinate public          information on Web site
    Medical Information              Joplin tornado              Missouri    public health        messaging with local   •   CMS provided information to beneficiaries
                                                                             and medical          health officials           regarding Children’s Health Insurance Program
                                                                             infrastructure                                  (CHIP) and other CMS services on Web site and
                                                                                                                             printed materials
                                                                                                                         •   SAMHSA provided communication materials for
                                                                                                                             State and local dissemination
                                                                                                                         •   PAO worked with States on public messaging
                                                          CT, DC, DE,
                                                                             Assess the                                      regarding well water contamination
                                                          MA, MD, NC,                             Coordinate potential
                                                                             integrity of the                            •   CDC updated information about hurricanes on
                                   Hurricane Irene         NJ, NY, PA,                            requests or public
                                                                             public health                                   disaster Web sites
                                                        PR, RI, SC, VT,                           messaging
                                                             VA, USVI
                                                                             infrastructure                              •   SAMHSA provided communication materials for
                                                                                                                             State and local dissemination
                                                                                                                                                         continued on next page




        HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                       47
                                Table E-1 HHS Resources Provided to Affected States in 2010 and 2011, Continued
                                                                             HHS Resource(s) Provided
Core Functional Area                        Incident             State(s)
                                                                             Objective            Strategy                Response
                                                                                                  Perform                 •   No State requests or HHS actions
                                                                                                  assessments of
                                                                             Assess the           needs for vector
                                         Red River                           integrity of the     control, food and
                                                           North Dakota
                                          flooding                           public health        water safety, and
                                                                             infrastructure       sanitation; support
                                                                                                  State requests for
14. Vector Control (i.e.,                                                                         assistance
    eradicating mammals,                                                     Ensure the                                   •   CDC vector control efforts and fogging operations
                                                                                                  Provide vector
    birds, or insects that                                                   integrity of the                                 assessed
                                                                                                  control and
    transmit diseases, such          Joplin tornado              Missouri    public health
                                                                                                  surveillance of food
    as West Nile virus)                                                      and medical
                                                                                                  safety
                                                                             infrastructure
                                                                                                  Conduct vector          •   REC monitored Virginia Department of Health
                                                          CT, DC, DE,        Ensure the           control survey and          request for technical assistance for vector control
                                                          MA, MD, NC,        integrity of the     provide
                                   Hurricane Irene         NJ, NY, PA,       public health        recommendations
                                                        PR, RI, SC, VT,      and medical          for long-term control
                                                             VA, USVI        infrastructure       and followup
                                                                                                  activities
                                                                                                  Perform                 •   CDC/FDA monitored State and local requests for
                                                                                                  assessments of              assistance
                                                                             Assess the           needs for vector
                                         Red River                           integrity of the     control, food and
                                                           North Dakota
                                          flooding                           public health        water safety and
                                                                             infrastructure       sanitation. Support
                                                                                                  State requests for
                                                                                                  assistance
15. Public Health Aspects of
                                                                                                                          •   CDC/FDA monitored State and local requests for
    Potable                                                                  Ensure the           Provide technical
                                                                                                                              assistance
    Water/Wastewater                                                         integrity of the     assistance for
                                                                                                                          •   CDC worked with local health department advisory
    and Solid Waste                  Joplin tornado              Missouri    public health        potable
                                                                                                                              assistance regarding handwashing and boil-water
                                                                             and medical          water/wastewater
                                                                                                                              order
                                                                             infrastructure       assessment
                                                                                                                          •   REC monitored needs regarding biowaste handling
                                                          CT, DC, DE,                                                     •   CDC/FDA monitored State and local requests for
                                                          MA, MD, NC,                                                         assistance
                                   Hurricane Irene         NJ, NY, PA,       None noted           None noted
                                                        PR, RI, SC, VT,
                                                             VA, USVI
                                                                                                                                                          continued on next page

        HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                       48
                                 Table E-1 HHS Resources Provided to Affected States in 2010 and 2011, Continued
                                                                              HHS Resource(s) Provided
Core Functional Area                         Incident             State(s)
                                                                              Objective            Strategy               Response
                                          Red River                                                                       •   No State requests or HHS actions
                                                            North Dakota      None noted           None noted
                                           flooding
                                                                              Ensure the           Provide technical      •   Discussed potential for veterinary support on
                                                                              integrity of the     assistance for             ESF-8 national calls
                                      Joplin tornado              Missouri    public health        protection of animal
16. Veterinary Medical                                                        and medical          life in coordination
    Support                                                                   infrastructure       with ESF-11
                                                           CT, DC, DE,                                                    •   Discussed potential for veterinary support on
                                                           MA, MD, NC,                                                        ESF-8 national calls
                                    Hurricane Irene         NJ, NY, PA,       None noted           None noted
                                                         PR, RI, SC, VT,
                                                              VA, USVI
                                          Red River                                                                       •   No State requests or HHS actions
                                                            North Dakota      None noted           None noted
                                           flooding
                                                                              Ensure the                                  •   DMORT support requested and sent to MO;
                                                                              integrity of the     Provide fatality           processed over 120 remains
                                                                              public health        management
                                                                              and medical          capability
                                                                              infrastructure
                                      Joplin tornado              Missouri
                                                                              Ensure the                                  •   FACT conducted family interviews and collection of
                                                                              integrity of the     Provide victim             data to support victim identification
                                                                              public health        identification and
                                                                              and medical          mortuary services
17. Mass Fatality                                                             infrastructure
    Management, Victim                                                        Ensure the                                  •   Provided two fatality management SME to VT and
    Identification, and                                                       integrity of the     Provide fatality           advised State on recovery of remains
    Decontaminating                                                           public health        management
    Remains                                                                   and medical          capability
                                                                              infrastructure
                                                           CT, DC, DE,        Ensure the                                  •   Provided two fatality management SME to VT and
                                                                                                   Support the local
                                                           MA, MD, NC,        integrity of the                                advised State on recovery of remains
                                                                                                   coroner, provide
                                    Hurricane Irene         NJ, NY, PA,       public health
                                                                                                   identification of
                                                         PR, RI, SC, VT,      and medical
                                                                                                   human remains
                                                              VA, USVI        infrastructure
                                                                              Ensure the                                  •   Provided two fatality management SME to VT and
                                                                              integrity of the     Provide victim             advised State on recovery of remains
                                                                              public health        identification and
                                                                              and medical          mortuary services
                                                                              infrastructure
Source: The Office of the Assistant Secretary for Preparedness and Response (ASPR)

         HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                                                     49
                   APPENDIX F
                   Table F-1 2010 and 2011 Incidents to Which the Department of
                   Health and Human Services Deployed Resources*
                    
                                  2010 Incidents                                                    2011 Incidents
              Biomedical Advanced Research and Development
                                                                                 2011 Hawaii Humanitarian Mission 1
              Authority H1N1 Vaccine Support Mission
              H1N1 Outbreak (On-Call)                                            Earthquake and Tsunami Response
              Haiti Earthquake                                                   Japan Earthquake/Tsunami Nuclear Accident
              Vaccination Team Support                                           Pennsylvania Severe Winter Storms
              Chile Earthquake                                                   North Dakota Red River Flooding
              North Dakota Red River Flooding                                    South Dakota Flooding
                                                                                 Alabama Severe Storms, Tornadoes, and
              New England Flooding
                                                                                 Straight-Line Winds
              Tennessee Severe Storms, Flooding, and
                                                                                 New York State Flooding
              Straight-Line Winds
                                                                                 Federal Emergency Management Agency
              Tropical Storm and Hurricane Alex                                                                             62
                                                                                 (FEMA) Region II Flooding (Multiple States)
              Hurricane Earl                                                     Hurricane Irene/Tropical Storm Lee
              Louisiana BP Oil Spill                                             New England Severe Weather
              2010 Hawaii Humanitarian Mission 1                                 Tropical Storm Maria
                                                                                 Missouri Severe Storms, Tornadoes, and
              Rocky Boy Indian Reservation Montana Flooding
                                                                                 Flooding
              Kentucky Severe Storms, Flooding, and
              Mudslides
              2010 Hawaii Humanitarian Mission 2
              Total = 15                                                         Total = 13
            * Incidents include emergencies and disasters. Resources may be provided for international incidents.
              Source: The Office of the Assistant Secretary for Preparedness and Response.




                   62
                      FEMA provides resources to affected areas in States, territories, and tribes and divides its
                   service area into regions. Region II is composed of New York, New Jersey, Puerto Rico, and
                   the U.S. Virgin Islands. FEMA, Region II. Accessed at
                   http://www.fema.gov/about/regions/regionii/ on June 22, 2012.



HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                                50
                  APPENDIX G
                  Agency Comments




HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)   51
HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)   52
HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)   53
HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)   54
HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)   55
                                                                               Response to OEI-04-11-00260
                                                                                                    Page6
            the single point of contact with the states. Further, we will add an item to the agenda for our
            incident coordination calls, reminding HHS Staff Divisions and Operating Divisions of the need
            tor a coordinated approach to information exchange with our state partners. Finally, we will
            stress to the StatTDivisions and Operating Divisions that questions can be forwarded to the SOC
            and the SOC can engage states, and then push summary reports out internally ASPR is
            identifying pre-existing federal reports and information sources to establish protected sharing
            capabilities with all our ESF partners prior to an incident response. These collaborations have
            improved situational awareness and planning efforts while similarly reducing the number of
            requests from the federal level to the states. These measures should alleviate multiple requests
            for information and help to ensure that states are not unnecessarily overburdened.

            Thank you for carrying out your study and providing us with a report highlighting how HHS has
            prepared to provide public health and medical services to fulfill its emergency support
            responsibilities, and has carried out those responsibilities in selected responses. We appreciate
            the opportunity to review your report and respond to your recommendations. Please direct any
            questions to Jessica Tytel by telephone at 202.205.4369, or by e-mail at Jessica.Tytel@hhs.gov.


                                                                   /S/
                                                       Nicole Lurie, MD, MSPH
                                                       Assistant Secretary for Preparedness and Response




HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)                         56
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Dwayne Grant, Regional
                  Inspector General for Evaluation and Inspections in the Atlanta regional
                  office, and Jaime Durley, Deputy Regional Inspector General.
                  Sarah McLaulin served as the team leader for this study. Other Office of
                  Evaluation and Inspections staff from the Atlanta regional office who
                  conducted the study include Hannah Spell. Central office staff who
                  provided support include Kevin Farber, Debra Roush, and Talisha Searcy.




HHS Public Health and Medical Services Emergency Support Preparedness (OEI-04-11-00260)      57
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
